                         Federal Register / Vol. 64, No. 219 / Monday, November 15, 1999 / Notices                         61893

names and addresses of proposed              and lawful conduct throughout the                • Designating a compliance officer
participants, and an estimate of the time    entire health care industry.                  and a compliance committee;
required to make the presentation. We        FOR FURTHER INFORMATION CONTACT:                 • Conducting effective training and
will request that you declare at the         Barbara Frederickson, Office of Counsel       education;
meeting whether or not you have any          to the Inspector General, (202) 619–
financial involvement with                   2078.                                            • Developing effective lines of
manufacturers of any items or services                                                     communication;
                                             SUPPLEMENTARY INFORMATION:
being discussed (or with their                                                                • Enforcing standards through well-
competitors).                                Background                                    publicized disciplinary guidelines and
   After public presentation, we will          The creation of compliance program          developing policies addressing dealings
make a presentation to the Committee.        guidance continues to be a major              with sanctioned individuals;
After our presentation, the Committee        initiative by the OIG in its effort to           • Conducting internal monitoring and
will deliberate openly on the topic.         engage the health care community in           auditing; and
Interested persons may observe the           combating fraud and abuse. In
deliberations, but the Committee will        formulating compliance guidance, the             • Responding promptly to detected
not hear further comments during this        OIG has worked closely with the Health        offenses, developing corrective action,
time except at the request of the            Care Financing Administration (HCFA),         and reporting to the Government.
chairperson. At the end of the               the Department of Justice (DOJ) and              The OIG is offering specific
Committee deliberations, the Committee       various sectors of the health care            compliance measures that may be
will allow a 30-minute open public           industry to provide clear guidance to         implemented by Medicare+Choice
session for any attendee to address          the industry. The previously-issued           organizations in an effort to curtail or
issues specific to the topic. After which,   compliance program guidances                  eliminate fraud and abuse. While HCFA
the members will vote and the                addressed six areas: the hospital             regulations require Medicare+Choice
Committee will make its                      industry; home health agencies; clinical      organizations to implement compliance
recommendation.                              laboratories; third-party medical billing     programs, adoption of the Compliance
   Authority: 5 U.S.C. App. 2, section 10
                                             companies; the durable medical                Program Guidance for Medicare+Choice
(a)(1) and (a)(2).                           equipment, prosthetics, orthotics and         Organizations Offering Coordinated
(Catalog of Federal Domestic Assistance
                                             supply industry; and hospices. The            Care Plans set forth below is voluntary.
Program No. 93.774, Medicare—                development of these compliance                  A reprint of this newly-issued
Supplementary Medical Insurance Program)     program guidances is based on our             compliance program guidance follows:
   Dated: November 5, 1999.                  belief that a health care provider can use
                                             internal controls to more efficiently         Office of Inspector General’s
Jeffrey L. Kang,
                                             monitor adherence to applicable               Compliance Program Guidance for
Director, Office of Clinical Standards and   statutes, regulations and program             Medicare+Choice Organizations
Quality, Health Care Financing
Administration.
                                             requirements.                                 Offering Coordinated Care Plans
                                                                                           (November 1999)
[FR Doc. 99–29670 Filed 11–12–99; 8:45 am]   Guidance for Medicare+Choice
BILLING CODE 4120–01–P                       Organizations                                 I. Introduction
                                                On September 22, 1998, the OIG                In its ongoing effort to work
                                             published a solicitation notice seeking       collaboratively with the health care
DEPARTMENT OF HEALTH AND                     information and recommendations for
HUMAN SERVICES                                                                             industry to achieve the mutual goals of
                                             developing formal guidance for                quality health care and the elimination
                                             Medicare+Choice organizations (63 FR          of fraud, waste and abuse, the Office of
Office of Inspector General
                                             50577). In response to that solicitation      Inspector General (OIG) of the
Publication of the OIG’s Compliance          notice, the OIG received five comments        Department of Health and Human
Program Guidance for                         from the industry and their                   Services (HHS) encourages voluntarily
Medicare+Choice Organizations                representatives. After careful                developed and implemented
Offering Coordinated Care Plans              consideration of those initial comments,      compliance programs for the health care
                                             and in an effort to ensure that all parties   industry. Fundamentally, compliance
AGENCY: Office of Inspector General          had a reasonable opportunity to provide       efforts are designed to establish a
(OIG), HHS.                                  input into a final product, the OIG           culture within an organization that
ACTION: Notice.                              published draft guidance for                  promotes prevention, detection and
                                             Medicare+Choice organizations on June         resolution of instances of conduct that
SUMMARY:    This Federal Register notice     24, 1999 (64 FR 33869) for further
sets forth the Compliance Program                                                          do not conform to Federal and State law
                                             comment and recommendations. A total          and Federal health care program
Guidance for Medicare+Choice                 of 16 timely-filed comments were
Organizations Offering Coordinated                                                         requirements, as well as the
                                             received for consideration by the OIG in      organization’s ethical and business
Care Plans (‘‘Medicare+Choice                response to the publication of that draft
organizations’’) that was recently issued                                                  policies. In practice, the compliance
                                             guidance.                                     program should effectively articulate
by the Office of Inspector General (OIG).
The OIG has previously developed and         Elements for an Effective Compliance          and demonstrate the organization’s
published compliance program                 Program                                       commitment to legal and ethical
guidance focused on other areas of the          Through experience, the OIG has            conduct.
health care industry. We believe that the    identified seven fundamental elements            As a demonstration of the OIG’s
development and issuance of this             to an effective compliance guidance           commitment to compliance, the OIG has
compliance program guidance for              program that are being reflected in this      issued recommendations, in the form of
Medicare+Choice organizations will           latest issuance. They are:                    compliance program guidances, that
continue to serve as a positive step            • Implementing written policies,           provide suggestions regarding how
toward promoting a high level of ethical     procedures and standards of conduct;          specific segments of the industry can
61894                      Federal Register / Vol. 64, No. 219 / Monday, November 15, 1999 / Notices

best implement compliance programs.1                   them in developing compliance                          strong commitment to honest and
As a result of the changing nature of the              programs.                                              responsible corporate conduct;
health care delivery system and the                      While the regulations implementing                      • The ability to obtain an accurate
growing trend toward reliance on the                   the Medicare+Choice program, or Part                   assessment of employee and contractor
managed care industry in the provision                 C, require a Medicare+Choice                           behavior relating to fraud and abuse;
of health care in the Medicare context,                organization to establish a compliance                    • Improved (clinical and non-clinical)
the OIG believes it is appropriate to                  plan,5 the OIG’s program guidance is                   quality of care and service;
issue a guidance focusing on                           voluntary and simply is intended to                       • Improved assessment tools that
Medicare+Choice organizations 2                        provide assistance for Medicare+Choice                 could affect many or all of the
offering coordinated care plans 3                      organizations looking for additional                   Medicare+Choice organization’s
(Medicare+Choice organizations). The                   direction in the development of internal               divisions or departments;
OIG formulated this guidance                           controls that promote adherence to                        • Increased likelihood of
specifically for Medicare+Choice                       applicable Federal and State law. The                  identification and prevention of
organizations because these                            OIG first provides its general views on                unlawful and unethical conduct;
organizations are well-defined and are                 the value and fundamental principles of                   • A centralized source for distributing
subject to a comprehensive regulatory                  Medicare+Choice organizations’                         information on health care statutes,
structure.4 In addition, Congress                      compliance programs, and then                          regulations and other program directives
envisioned an important role for                       provides specific elements that each                   related to fraud and abuse;
Medicare+Choice organizations,                         Medicare+Choice organization should                       • The creation or reinforcement of an
demonstrated by the substantial amount                 consider when developing and                           environment that encourages employees
of Federal funds received by these                     implementing an effective compliance                   to report potential problems;
organizations.                                         program.                                                  • Procedures that allow the prompt,
   The OIG encourages Medicare+Choice                                                                         thorough investigation of possible
                                                       A. Benefits of a Compliance Plan                       misconduct by corporate officers,
organizations to read the guidance with
the whole organization in mind,                           The OIG believes an effective                       managers, employees and independent
applying the guidance to whatever                      compliance program provides a                          contractors;
departments or divisions, including                    mechanism that brings the public and                      • An improved relationship with the
private-sector managed care areas, that                private sectors together to reach mutual               Center for Health Plans and Providers
are deemed appropriate by that                         goals of reducing fraud and abuse,                     (CHPP) at HCFA; and
organization. Indeed, many of the                      improving operational quality, and                        • Early detection and reporting,
suggestions in this guidance can be used               ensuring the provision of high quality                 minimizing the loss to the Government
by managed care organizations that do                  cost-effective care. Attaining these goals             from false or improper claims, and
not contract with HCFA to provide a                    benefits business, Government,                         thereby reducing the Medicare+Choice
Medicare+Choice plan. In particular,                   individual citizens and Medicare                       organization’s exposure to civil damages
entities that participate in other public              beneficiaries alike. In addition to                    and penalties, criminal sanctions, and
health care programs, such as Medicaid,                fulfilling its legal duties to ensure that             administrative remedies, such as
may want to look to the general                        it is not submitting false or inaccurate               program exclusion.6
principles in this document to assist                  information to the Government or                          Overall, the OIG believes that an
                                                       providing substandard care to Medicare                 effective compliance program is a sound
   1 See 64 FR 58419 (10/29/99) for the draft
                                                       beneficiaries, a Medicare+Choice                       business investment that has the
compliance program guidance for nursing facilities;    organization may gain numerous                         potential of enhancing the efficiency
64 FR 54031 (10/5/99) for the compliance program                                                              and effectiveness of the
guidance for hospices; 64 FR 36368 (7/6/99) for the    additional benefits by implementing an
compliance program guidance for the durable            effective compliance program. These                    Medicare+Choice organization. It may
medical equipment, prosthetics, orthotics and          benefits may include:                                  also improve the Medicare+Choice
suppliers industry; 63 FR 70138 (12/18/98) for the        • The formulation of effective                      organization’s financial structure by
compliance program guidance for third-party                                                                   addressing not only fraud and abuse
medical billing companies; 63 FR 45076 (8/24/98)       internal controls to assure compliance
for the compliance program guidance for clinical       with Federal regulations and internal                  concerns, but efficiency and
laboratories; 63 FR 42410 (8/7/98) for the             guidelines;                                            productivity concerns in other
compliance program guidance for home health               • Improved communication with and                   operational areas.
agencies; and 63 FR 8987 (2/23/98) for the                                                                       The OIG recognizes the
compliance program guidance for hospitals.             satisfaction of Medicare+Choice
These documents are also located on the Internet       enrollees;                                             implementation of an effective
at http://www.hhs.gov/oig/.                               • The ability to more quickly and
   2 A Medicare+Choice organization is defined as a
                                                       accurately react to employees                            6 The OIG, for example, will consider the

public or private entity organized and licensed by     operational compliance concerns and                    existence of an effective compliance program that
a State as a risk-bearing entity (with the exception                                                          pre-dated any governmental investigation when
of provider-sponsored organizations receiving          the capability to effectively target                   addressing the appropriateness of administrative
waivers) that is certified by the Health Care          resources to address those concerns;                   sanctions. However, the burden is on the
Financing Administration (HCFA) as meeting the            • A concrete demonstration to                       Medicare+Choice organization to demonstrate the
Medicare+Choice contract requirements (42 CFR          employees and the community at large                   operational effectiveness of a compliance program.
422.2).                                                                                                       Further, the False Claims Act, 31 U.S.C. 3729–3733,
   3 For the purposes of this compliance program       of the Medicare+Choice organization’s                  provides that a person who has violated the Act, but
guidance, a ‘‘coordinated care plan’’ is a plan that                                                          who voluntarily discloses the violation to the
includes a network of providers that are under           5 The regulations require that any plan              Government within 30 days of detection, in certain
contract or arrangement with the organization to       contracting with HCFA implement a compliance           circumstances will be subject to not less than
deliver the benefit package approved by HCFA (42       plan that encompasses the elements detailed in the     double, as opposed to treble, damages. See 31
U.S.C. 1395w–28(a)(1); 42 CFR 422.4).                  Federal Sentencing Guidelines. 42 CFR                  U.S.C. 3729(a). In addition, an organization will
   4 In this guidance, we have focused our attention   422.501(b)(vi). HCFA will release an operational       receive sentencing credit for an ‘‘effective’’
on regulations applicable to Medicare+Choice           policy letter addressing the compliance                compliance program under the Federal Sentencing
organizations governing marketing, enrollment,         requirements detailed in the regulation. In response   Guidelines. See United States Sentencing
disenrollment, underutilization, data collection,      to concerns from industry representatives on the       Commission Guidelines, Guidelines Manual, 8C2.5.
anti-kickback statute and emergency services, rather   short time frame for implementing a compliance         Thus, the ability to react quickly when violations
than providing instruction on all aspects of           plan, HCFA delayed the actual implementation date      of the law are discovered may materially reduce the
regulatory compliance.                                 of the compliance plan until January 1, 2000.          Medicare+Choice organization’s liability.
                     Federal Register / Vol. 64, No. 219 / Monday, November 15, 1999 / Notices                                              61895

compliance program may not entirely         organizations cover broad service areas,             conducted by OIG’s Office of
eliminate fraud, abuse and waste from       while others are focused on a particular             Investigations (OI) and the Department
an organization. However, a sincere         geographic region. Similarly, the range              of Justice.
effort by a Medicare+Choice                 of benefits covered differ among plans,                 As appropriate, this guidance may be
organization to comply with applicable      as does the size of the network and the              modified and expanded as more
Federal and State standards, through the    use of a varying number of provider                  information and knowledge is obtained
establishment of an effective               contracting tiers to deliver services.               by the OIG, and as changes in the law,
compliance program, significantly           Clearly, these differences may give rise             and in the rules, policies and
reduces the probability of unlawful or      to different substantive policies to                 procedures of the Federal and State
improper conduct.                           ensure effective compliance.                         plans occur. New compliance practices
                                            Furthermore, some Medicare+Choice                    may eventually be incorporated into this
B. Application of Compliance Program
                                            organizations are relatively small, while            guidance if the OIG discovers significant
Guidance
                                            others are fully integrated and offer                enhancements to better ensure an
   Before explaining the specific           Medicare+Choice plans in a wide                      effective compliance program. We
elements of a compliance program, it is     variety of areas. Finally, the availability          recognize the development and
important to emphasize several aspects      of resources for any one                             implementation of compliance programs
of this document: its voluntary nature,     Medicare+Choice organization can                     in Medicare+Choice organizations often
its applicability to Medicare+Choice        differ vastly.                                       raise sensitive and complex legal and
organizations, the collaborative nature       Notwithstanding these differences,                 managerial issues.11 However, the OIG
by which it was developed, and its          this guidance is pertinent for all                   wishes to offer what it believes is
evolving nature.                            Medicare+Choice organizations, large or              critical guidance for those who are
   First, it should be re-emphasized that   small, regardless of the type of services            sincerely attempting to comply with the
while the regulations implementing the      provided. The applicability of the                   relevant health care statutes and
Medicare+Choice program, or Part C,         recommendations and guidelines                       regulations.
require a Medicare+Choice organization      provided in this document may depend
to establish a compliance plan,             on the circumstances and resources of                II. Compliance Program Elements
including specified elements,7 this         each particular Medicare+Choice                        The elements discussed in this
program guidance is voluntary.              organization. However, regardless of the             guidance are similar to those of the
Although this document presents basic       organization’s size and structure, the               other OIG Compliance Program
procedural and structural guidance for      OIG believes every Medicare+Choice                   Guidances 12 and our corporate integrity
designing a compliance program, it is       organization can and should strive to                agreements.13 While these same
not in itself a compliance program.         accomplish the objectives and major                  elements are required by HCFA in the
Rather, it is a set of guidelines for       principles underlying all of the                     Medicare+Choice regulations,14 the OIG
consideration by a Medicare+Choice          compliance policies and procedures                   reiterates that this guidance is not
organization interested in obtaining        recommended within this guidance.                    mandatory, but simply represents OIG’s
specific information on implementing a        The OIG recognizes that the success of             recommendations on how the elements
compliance program. This guidance           the compliance program guidance                      can be implemented.15
represents the OIG’s suggestions on how     hinges on thoughtful and practical                     Every effective compliance program
a Medicare+Choice organization can          comments from those individuals and                  must begin with a formal commitment 16
establish internal controls and monitor     organizations that will utilize the tools            by the Medicare+Choice organization’s
company conduct to correct and prevent      set forth in this document. In a                     governing body to include all of the
fraudulent activities.                      continuing effort to collaborate closely
   It is critical for the Medicare+Choice   with the private sector, the OIG solicited           Organizations and competitive medical plans as
organization to assess its own              input and support from the public in the             defined in 42 U.S.C. 1395mm.
organization and determine its needs        development of this compliance                         11 Nothing stated herein should be substituted for,

with regard to compliance with              program guidance.8 Further, we took                  or used in lieu of, competent legal advice from
applicable Federal and State statutes                                                            counsel.
                                            into consideration previous OIG                        12 See note 1.
and Federal health care program             publications, such as Special Fraud                    13 Corporate integrity agreements are executed as
requirements. By no means should the        Alerts, the recent findings and                      part of a civil settlement agreement between the
contents of this guidance be viewed as      recommendations in reports issued by                 health care provider and the Government to resolve
an exclusive discussion of the advisable    OIG’s Office of Audit Services (OAS)                 a case based on allegations of health care fraud or
components of a compliance program.                                                              abuse. These OIG-imposed agreements are generally
                                            and Office of Evaluation and                         in effect for a period of 3 to 5 years and require
On the contrary, the OIG strongly           Inspections (OEI),9 comments from                    many of the elements included in this compliance
encourages Medicare+Choice                  HCFA, as well as the experience of past              guidance.
organizations to develop and implement      and recent fraud investigations related
                                                                                                   14 42 CFR 422.501(b)(vi).

compliance components that uniquely         to managed care organizations 10
                                                                                                   15 The OIG appreciates that because

address the individual organization’s                                                            Medicare+Choice organizations are subject to
                                                                                                 substantial regulations that contain extensive
risk areas.                                    8 See Solicitation of Information and
                                                                                                 operational requirements as well as requirements
   Implementing a compliance program        Recommendations for Developing the OIG               regarding self-monitoring and monitoring or review
in a Medicare+Choice organization is a      Compliance Program Guidance for Certain              of activities by external organizations, they may
complicated venture. There are              Medicare+Choice Organizations (63 FR 50577 (9/       already be performing some of the activities
                                            22/98)). We also requested public comment on the     discussed in this guidance. Each Medicare+Choice
significant variances and complexities      draft guidance (64 FR 33869 (6/24/99)).              organization must determine the extent to which
among Medicare+Choice organizations            9 Special Fraud Alerts are available on the OIG   these activities need to be modified or
in terms of the type of services and the    website at http://www.hhs.gov/oig/. The recent       supplemented to create an effective compliance
manner in which these services are          findings and recommendations of OEI and OAS can      program.
                                            be located on the Internet at http://www.hhs.gov/      16 Formal commitment may include a resolution
provided to the respective members. For     oei and http://www.hhs.gov/progorg/oas/cats/         by the board of directors, where applicable. A
example, some Medicare+Choice               hcfa.html, respectively.                             formal commitment does include the allocation of
                                               10 These investigations include findings based    adequate resources to ensure that each of the
 7 See   note 5.                            upon Medicare risk-based Health Maintenance          elements is addressed.
61896                      Federal Register / Vol. 64, No. 219 / Monday, November 15, 1999 / Notices

applicable elements listed below. A                    the responsibility and authority of                    OIG also recommends that
good faith and meaningful commitment                   operating and monitoring the                           Medicare+Choice organizations provide,
on the part of the Medicare+Choice                     compliance program and who report                      upon request, all contractors with a
organization’s administration, especially              directly to the CEO and the governing                  summary of the standards of conduct
the governing body and the chief                       body;                                                  and the number of the hotline. The
executive officer (CEO), will                             (3) The development and                             distribution of these materials could be
substantially contribute to the program’s              implementation of regular, effective                   accomplished via hard copy or via
successful implementation. It is                       education and training programs for all                electronic means.
incumbent upon an organization’s                       affected employees;
                                                          (4) The development of effective lines              1. Standards of Conduct
officers and managers to provide ethical
leadership to the organization and to                  of communication between the                              Medicare+Choice organizations
assure adequate systems and resources                  compliance officer and all employees,                  should develop standards of conduct for
are in place to facilitate and promote                 including a process, such as a hotline,                all affected employees that include a
ethical and legal conduct. Employees,                  to receive complaints (and the adoption                clearly delineated commitment to
managers and the Government will                       of procedures to protect the anonymity                 compliance by the organization’s senior
focus on the words and actions                         of complainants and to protect callers                 management and its divisions. To help
(including decisions made on resources                 from retaliation);                                     communicate a strong and explicit
devoted to compliance) of an                              (5) The use of audits or other risk                 organizational commitment to
organization’s leadership as a measure                 evaluation techniques to monitor                       compliance goals and standards, the
of the organization’s commitment to                    compliance and assist in the reduction                 Medicare+Choice organization’s
compliance.                                            of identified problem areas;                           governing body, CEO, chief operating
   Under Medicare+Choice, an                              (6) The development of disciplinary                 officer (COO), general counsel, chief
organization may, by written contract,                 mechanisms to consistently enforce                     financial officer (CFO) and other senior
delegate any activity required under or                standards and the development of                       officials should be directly involved in
governed by the Medicare+Choice                        policies addressing dealings with                      the development of standards of
standards to another entity. However, an               sanctioned and other specified                         conduct.
organization entering into a Medicare                  individuals; and                                          The standards should function in the
contract remains entirely accountable to                  (7) The development of policies to                  same fashion as a constitution, i.e., as a
HCFA for the performance of any                        respond to detected offenses, to initiate              foundational document that details the
delegated function.17 It is the sole                   corrective action to prevent similar                   fundamental principles, values and
responsibility of the organization to                  offenses, and to report to Government                  framework for action within an
ensure that the function is performed in               authorities when appropriate.                          organization, as well as the
accordance with applicable standards.                  A. Written Policies and Procedures                     organization’s mission and goals. The
While the activity may be delegated, the                                                                      standards should also articulate the
                                                          Every compliance program should
oversight responsibility remains with                                                                         Medicare+Choice organization’s
                                                       require the development and
the Medicare+Choice organization. Each                                                                        commitment to comply with all Federal
                                                       distribution of written compliance
Medicare+Choice organization should                                                                           and State laws and regulations, with an
                                                       policies, standards and practices that
keep these requirements and                                                                                   emphasis on preventing fraud and
                                                       identify specific areas of risk and
responsibilities in mind as it develops                                                                       abuse, and include the ramifications of
                                                       vulnerability to the Medicare+Choice
its compliance program.                                                                                       failure to comply with these standards.
   These elements are based on the                     organization. These policies should be
                                                       developed by the appropriate                           The standards should not only address
seven steps of the Federal Sentencing                                                                         compliance with statutes and
                                                       operational officials within the
Guidelines.18 As required by the HCFA                                                                         regulations, but should also set forth
                                                       Medicare+Choice organization, with
regulations, every Medicare+Choice                                                                            broad principles that guide employees
                                                       appropriate review and oversight by the
organization must implement all of the                                                                        in conducting business professionally
                                                       compliance officer and compliance
recommended elements and expand                                                                               and properly. In short, the standards
                                                       committee. The OIG recommends that
upon them, as appropriate. At a                                                                               should promote integrity, support
                                                       these policies be made available to all
minimum, comprehensive compliance                                                                             objectivity and foster trust. Furthermore,
                                                       individuals who are affected by the
programs should include the following                                                                         a Medicare+Choice organization’s
                                                       particular risk or policy area at issue.
seven elements:                                                                                               standards of conduct should reflect a
                                                       Such individuals would include, for
   (1) The development and distribution                                                                       commitment to high quality health care
                                                       example, Medicare+Choice employees
of written standards of conduct, as well                                                                      delivery, as evidenced by its conduct of
                                                       whose duties touch upon a particular
as written policies and procedures, that                                                                      on-going performance assessment,
                                                       risk or policy area, as well as agents and
promote the Medicare+Choice                                                                                   improved outcomes of care and respect
                                                       independent contractors with whom the
organization’s commitment to                                                                                  for the rights of Medicare+Choice
                                                       organization has contracted to perform
compliance and that address specific                                                                          enrollees.
                                                       delegated activities, which touch upon
areas of potential fraud (e.g., the
                                                       a particular risk or policy area.19 The                2. Written Policies for Risk Areas
marketing process and utilization);
   (2) The designation of a chief                        19 When                                                 As part of its commitment to
                                                                  determining to whom to distribute
compliance officer and other                           various policies, the Medicare+Choice                  compliance, Medicare+Choice
appropriate bodies, e.g., a corporate                  organizations should keep in mind that, according      organizations should establish a
compliance committee, charged with                     to the Federal Sentencing Guidelines, an               comprehensive set of written policies
                                                       organization must have established compliance
                                                       standards to be followed by its employees and other    addressing all applicable statutes, rules
  17 42 CFR 422.502(i).                                agents in order to receive sentencing credit. The      and program instructions that apply to
  18 See  United States Sentencing Commission          Guidelines define ‘‘agent’’ as ‘‘any individual,       each function or department of that
Guidelines, Guidelines Manual, 8A1.2, comment.         including a director, an officer, an employee, or an
(n.3(k)). The Federal Sentencing Guidelines are        independent contractor, authorized to act on behalf
                                                                                                              Medicare+Choice organization.20 The
detailed policies and practices for the Federal        of the organization.’’ See United States Sentencing
criminal justice system that prescribe appropriate     Commission Guidelines, Guidelines Manual, 8A1.2,        20 This includes, but is not limited to, the

sanctions for offenders convicted of Federal crimes.   Application Note 3(d).                                 Medicare+Choice provisions and the fraud and
                            Federal Register / Vol. 64, No. 219 / Monday, November 15, 1999 / Notices                                                     61897

policies should address specific areas of                consulting professionals. This risk                     • Marketing materials and personnel;
concern, such as marketing practices                     analysis could include surveys and                      • Selective marketing and enrollment;
and data collection and submission                       statistical analysis specifically tailored              • Disenrollment;
processes. In contrast to the standards of               to the organization’s beneficiary                       • Underutilization and quality of
conduct, which are designed to be a                      population, provider pool and                         care;
clear and concise collection of                          organizational structure and should                     • Data collection and submission
fundamental standards, the written                       identify and rank the various                         processes;
policies should articulate specific                      compliance and business risks the                       • Anti-kickback statute and other
procedures personnel should follow                       company may experience in its daily                   inducements; and
when performing their duties.21                          operations.23 A Medicare+Choice                         • Emergency services.
   The regulations and operational                       organization’s prior history of                         The following sections provide
policies issued by HCFA that implement                   noncompliance with applicable statutes,               specific guidance regarding the risk
the Medicare+Choice program are very                     regulations and Federal health care                   areas identified above.
comprehensive and, as required by                        program requirements, or the failure to               a. Marketing Materials and Personnel
HCFA, serve as the basis for the policies                report such non-compliance, may
and procedures of a Medicare+Choice                      indicate additional types of risk areas                  While each Medicare+Choice
organization.22 The legal, policy and                    where the organization may be                         organization must comply with all of
contractual requirements that                            vulnerable and may require necessary                  HCFA’s detailed requirements relating
organizations must meet and perform as                   policy measures to prevent avoidable                  to marketing their plans,26 OIG is
a Medicare+Choice organization are                       recurrence.24                                         particularly concerned that
articulated in documentation                                The fact that Medicare+Choice                      organizations have policies regarding:
promulgated by HCFA and other                            organizations may be both providers                   (1) The completeness and accuracy of
Federal agencies and should be                           and insurers of health care increases the             the marketing materials; and (2)
considered de facto risk areas. Included                 number and type of risk areas to which                marketing personnel.
among these risk areas are: (1) The                      a Medicare+Choice organization must                      Accurate and useful information is
election process; (2) benefits and                       be attuned, as well as the type of                    crucial to the success of the
beneficiary protections; (3) quality                     auditing and monitoring procedures that               Medicare+Choice program. The OIG is
assessment and performance                               must be implemented, in the                           concerned that Medicare+Choice
improvement; (4) cost sharing; (5)                       development of its compliance efforts.                organizations correctly and completely
solvency, licensure and other State                      For example, there are a variety of                   describe plan information in marketing
regulatory issues; (6) claims processing;                substantially different operational areas             materials or other materials distributed
and (7) appeals and grievance                            within the structure of a                             to individuals prior to and following
procedures.                                              Medicare+Choice organization such as                  enrollment. Medicare+Choice
   To determine the additional policies                  marketing, health services delivery and               organizations that misrepresent or
and procedures that are needed for a                     finances that could require different                 falsify information submitted to HCFA,
given Medicare+Choice organization                       types of policies.                                    individuals or entities are subject to
(and which policies may need particular                     Given the detailed nature of the HCFA              civil money penalties (CMPs) or other
attention), the OIG recommends that                      rules and regulations, we have not                    intermediate sanctions.27
Medicare+Choice organizations conduct                    attempted in this document to identify                   The submission of inaccurate or
a comprehensive self-administered risk                   each and every policy that should be                  misleading information is of particular
analysis or contract for an independent                  established by a Medicare+Choice                      concern to OIG. Medicare+Choice
risk analysis by experienced health care                 organization. Rather, based on a review               organizations should be aware that the
                                                         of OIG audits, investigations and                     fact that materials have been approved
abuse provisions of the Balanced Budget Act of           evaluations, we have identified the                   by HCFA does not absolve them from
1997, Pub. L. 105–33; the Civil False Claims Act,
31 U.S.C. 3729–3733; the criminal false claims           following areas of particular concern to              potential liability for misrepresenting or
statutes, 18 U.S.C. 287, 1001; the fraud and abuse       OIG that the Medicare+Choice                          falsifying information.28
provisions of the Health Insurance Portability and       organization should include in its                       HCFA considers marketing materials
Accountability Act of 1996 (HIPAA), Pub.L. 104–                                                                to include any informational materials
191; and the civil money penalties in the Social
                                                         written policies and procedures:25
Security Act, 42 U.S.C. 1320a–7a and 42 U.S.C.
                                                                                                               targeted to Medicare beneficiaries.
1395w–27(g). See also 42 CFR 422.1–422.312.                 23 Medicare+Choice organizations may also want     Marketing materials go beyond the
  21 The Medicare+Choice organization should             to consult the OIG’s Work Plan when conducting        public’s general conception of
document its efforts to formulate its policies to        the risk assessment. The OIG Work Plan details the
                                                         various projects the OIG currently intends to
                                                                                                               marketing materials and include general
comply with applicable statutes, regulations and
program requirements. For example, where a               address in the fiscal year. It should be noted that
Medicare+Choice organization requests advice from        the priorities in the Work Plan are subject to        managed care products should consider
HCFA, the Medicare+Choice organization should            modification and revision as the year progresses      establishing additional policies and procedures for
document and retain a record of the request and any      and the Work Plan does not represent a complete       risk areas that apply specifically to those areas.
written or oral response. This step is extremely         or final list of areas of concern to the OIG. The     Although the policies may be integrated, they
important if the Medicare+Choice organization            Work Plan is currently available on the Internet at   should identify, as appropriate, where deviations
intends to rely on that response to guide it in future   http://www.hhs.gov/oig/.                              may be necessary to meet Medicare+Choice
decisions, actions or appeals. In addition, the             24 ‘‘Recurrence of misconduct similar to that      requirements or State licensure requirements.
                                                                                                                  26 Medicare+Choice organizations should ensure
Medicare+Choice organization should maintain             which an organization has previously committed
records relevant to the issue of whether its reliance    casts doubt on whether it took all reasonable steps   that they conform to fair marketing standards as set
was ‘‘reasonable,’’ and whether it exercised due         to prevent such misconduct’’ and is a significant     forth in the statute, the Medicare Managed Care
diligence in developing procedures to implement          factor in the assessment of whether a compliance      National Marketing Guide (Marketing Guide) and
the advice.                                              program is effective. See United States Sentencing    all HCFA Operational Policy Letters affecting
  22 Medicare+Choice organizations should                Commission Guidelines, Guidelines Manual, 8A1.2,      marketing matters.
regularly access the HCFA managed care website at        Application Note 3(7)(ii).                               27 42 U.S.C. 1395w–27(g).

http://www.hcfa.gov/medicare/mgdcar1.htm for                25 Although many of these areas apply                 28 Medicare+Choice organizations may not

updates on regulations and operational policies.         specifically to Medicare+Choice organizations,        distribute marketing materials or election forms
Operational Policy Letters can be located on             many of the areas identified below have analogous     unless they have submitted them to HCFA for
HCFA’s web site at http://www.hcfa.gov/medicare/         issues in non-Medicare organizations.                 review 45 days prior to distribution and HCFA has
mgd-ops.htm.                                             Medicare+Choice organizations that provide private    not disapproved their distribution (42 CFR 422.80).
61898                     Federal Register / Vol. 64, No. 219 / Monday, November 15, 1999 / Notices

circulation brochures, leaflets,                     necessary control to ensure that these                 factor that is related to health status,
newspapers, magazines, television,                   individuals meet all HCFA guidelines.                  including, but not limited to, the
radio, billboards, yellow pages, the                 Similarly, it safeguards Medicare                      following: (1) Medical condition
internet, slides and charts, and leaflets            beneficiaries from practices that could                (including mental illness); (2) claims
for distribution by providers. Such                  greatly affect the access to health care to            experience; (3) receipt of health care; (4)
materials also include membership                    which they are entitled and their ability              medical history; (5) genetic information;
communication materials such as                      to acquire accurate and complete                       (6) evidence of insurability; and (7)
membership rules, subscriber                         information regarding their health care                disability.37 Engaging in practices that
agreements, or confirmation of                       options.                                               would reasonably be expected to have
enrollment.29 Accordingly,                             Medicare+Choice organizations                        the effect of denying or discouraging
Medicare+Choice organizations should                 should also be aware that the OIG and                  enrollment by eligible individuals
carefully scrutinize all of these materials          HCFA strongly discourage the use of                    whose medical condition or history
for completeness, accuracy and                       physicians as marketing agents for                     indicates the need for substantial future
compliance with HCFA rules,                          several reasons: (1) When a physician                  medical services subjects the
regulations and policy letters.                      acts outside his or her traditional role as            Medicare+Choice organization to a CMP
   In verifying that marketing materials             care provider, the physician’s patients                or other sanction, such as suspension of
meet all HCFA requirements,                          may be confused as to when the                         enrollment or suspension of payment.38
Medicare+Choice organizations should                 physician is acting as an agent of the                    Certain types of practices clearly fall
ensure that the appropriate materials                plan, and when the physician is acting                 into the category of cherry-picking and
contain an adequate description of                   in his or her role as a fiduciary to act               Medicare+Choice organizations should
enrollee rights, procedures for accessing            in the best interests of the patient; (2) a            implement policies to prohibit and
basic benefits and services, and a clear             physician’s knowledge of a patient’s                   prevent such practices. For example,
explanation of the appeal and grievance              health status increases the potential for              organizations should generally prohibit
process.30 Of particular concern to                  discriminating in favor of Medicare                    employees from conducting medical
HCFA and OIG is that the concept of                  beneficiaries with positive health status              screening, i.e., asking the beneficiary
‘‘lock-in’’ is clearly explained in all              when acting as a marketing agent; (3)                  medical questions prior to enrollment.39
marketing material. Many Medicare                    physicians may not be fully aware of                   In a 1996 survey, the OIG found that
beneficiaries are unfamiliar with the                membership plan benefits and costs;                    such screening for health status at
notion that managed care may limit                   and (4) physicians may not be the best                 application was reported by 18 percent
their health care provider choices.                  source of membership information for                   of beneficiaries. While this represented
Describing the process of selecting a                their patients.33 Therefore, the                       a reduction from the 1993 level of 43
primary care physician and the                       organization should develop policies to                percent, it still represents a potentially
limitations that this places on a                    ensure that any provider promotional                   serious problem.40
Medicare+Choice enrollee’s choice of                 activities are conducted in accordance                    Another way in which
provider will reduce the unmet                       with HCFA guidelines (which allow,                     Medicare+Choice organizations may
expectations of Medicare beneficiaries.              e.g., the distribution of health plan                  inappropriately target healthier
   Another important concept to include              brochures (exclusive of applications) at               beneficiaries is by primarily marketing
in the marketing materials is that the               a health fair or in their own offices).34              their plans in places where healthy
beneficiary may be terminated from                                                                          enrollees are more likely to be present,
enrollment in the plan due to the                    b. Selective marketing and Enrollment
                                                                                                            such as at health and exercise clubs, or
decision of the Medicare+Choice                         The OIG is very concerned about the                 in areas that are difficult to access for
organization not to renew its contract               practice known as ‘‘cherry-picking,’’ or               people with disabilities (e.g., upper
with HCFA, or due to HCFA’s refusal to               selective marketing,35 in which                        floors of buildings that do not have
renew the contract.31 This termination               Medicare+Choice organizations                          elevators).41 Similarly, organizations
can affect the enrollee’s eligibility for            discriminate in the marketing and                      may inappropriately provide
supplemental insurance and other                     enrollment process based upon an                       inducements to potential enrollees in a
benefits.                                            enrollee’s degree of risk for costly or                way that would encourage younger,
   Second, in light of the critical role             prolonged treatment.36 Except for                      healthier beneficiaries to enroll in the
that marketing personnel play in                     individuals who have been medically                    plan. For example, the offering of free
representing the plan to Medicare                    determined to have end-stage renal                     gym memberships or kayaking or other
enrollees, the Medicare+Choice                       disease, a Medicare+Choice                             sporting lessons would appeal to a
organization must take all appropriate               organization may not deny, limit or                    healthy class of enrollees and
steps to ensure that marketing personnel             condition the coverage or furnishing of                discriminate against those who would
are presenting clear, complete and                   benefits to individuals eligible to enroll             not be interested in such activities.42 If
accurate information to potential                    in a Medicare+Choice plan offered by
enrollees. To that end, the OIG                      the organization on the basis of any                     37 42  U.S.C. 1395w–22(b)(1); 42 CFR 422.110.
encourages Medicare+Choice                                                                                    38 42  U.S.C. 1395w–27(g)(1)(D); 42 CFR 422.750
organizations to employ their own                      33 Marketing   Guide, Chapter IV.                    through 422.760.
marketing personnel, as opposed to                     34 Id.                                                 39 Pursuant to 42 CFR 422.50(a)(2), it would be

contracting these responsibilities to                   35 OIG is also concerned about a similar problem,   appropriate to determine whether a potential
outside entities.32 This provides the                known as ‘‘gerrymandering,’’ which is an attempt       enrollee has end-stage renal disease.
                                                                                                              40 ‘‘Beneficiary Perspectives of Medicare Risk
Medicare+Choice organization the                     to eliminate certain high dollar risk areas from the
                                                     Medicare+Choice organization’s service area.           HMOs 1996.’’ (OEI–06–95–00430)(March 1998).
                                                     Medicare+Choice organizations should have                41 In fact, Medicare+Choice organizations are
  29 42  CFR 422.80(b).                              policies in place to avoid such practices.             required to allocate part of their resources to
  30 42  CFR 422.80(c).                                 36 Although the Medicare+Choice program has         marketing to the Medicare population with
  31 42 CFR 422.80(c)(3).
                                                     attempted to alleviate many of the selective           disabilities (42 CFR 422.80(e)(2)(i)).
  32 It should be noted that Medicare+Choice         marketing practices through the use of risk              42 The statute prohibits the provision of cash or

organizations have ultimate responsibility for the   adjustment, the phase-in period for risk-adjustment    other monetary rebates as an inducement for
acts and omissions of its marketing agents (42 CFR   virtually assures that this will remain a troubling    enrollment in the plan. See 42 U.S.C. 1395w–
422.502(i)).                                         issue through 2004.                                    21(h)(4)(A). However, HCFA allows
                            Federal Register / Vol. 64, No. 219 / Monday, November 15, 1999 / Notices                                                       61899

a Medicare+Choice organization intends                   beneficiaries just prior to receiving                  ‘‘stinting,’’ as a serious issue.49
to offer such items as a                                 expensive inpatient services.46                        Examples of practices that can lead to
Medicare+Choice benefit, the item must                      In this review, OIG found that                      underutilization and poor quality
meet the definitional requirements of a                  Medicare paid for inpatient hospital                   include the failure to employ or contract
bona fide benefit. The item must be: (1)                 services amounting to $224 million in                  with sufficient institutional and
Related to health care; and (2) costed                   fee-for-service (FFS) payments within 3                individual providers to accommodate
out in the Medicare+Choice                               months of beneficiaries’ disenrollment                 all enrollees, the failure to provide
organization’s Adjusted Community                        from six risk plans during 1991 through                geographically reachable services to
Rate. Any such items that do not meet                    1996. Had these beneficiaries not                      enrollees, the delay in approving or
these requirements are not valid                         disenrolled, Medicare would have paid                  failure to approve referrals for covered
Medicare+Choice benefits and must be                     the HMOs $20 million in monthly                        services, the establishment of utilization
considered ‘‘value added services’’                      capitation payments. Had the                           review procedures that are so
(VAS) subject to all the limitations                     beneficiaries remained in the HMOs,                    burdensome that an enrollee could not
                                                         Medicare would have saved $204                         reasonably be expected to fulfill the
associated with VAS.
                                                         million in expenditures. Included in the               requirements and the categorical denial
   Other examples of cherry-picking                      Medicare FFS payments were $41                         of payment of claims.50
would be: (1) Attempts to give                           million for beneficiaries who                             There are a wide variety of policies
enrollment priority to newly eligible                    disenrolled, had FFS procedures                        that a Medicare+Choice organization
Medicare beneficiaries (who are                          performed, and then reenrolled into                    should implement to be sure it is
theoretically younger and healthier),                    another or the same managed care plan.                 providing all medically necessary
other than as set forth in the                              While this study did not identify the               services to its enrollees. The regulations
regulations; 43 (2) the tracking of costs                reasons for the disenrollment as part of               and guidelines that implement the
incurred by enrollees who were enrolled                  this review, one partial explanation of                Medicare+Choice program contain
in different settings (e.g., at the health               the review could be that some managed                  numerous provisions that deal with this
fair, or at a health club), which could be               care plans or their medical personnel                  issue. While we have not attempted to
used to target healthier enrollees in the                may be encouraging sicker beneficiaries                develop a comprehensive list in this
future; or (3) re-enrollment campaigns                   to disenroll as a way to avert their own               document, we would like to highlight
targeting past plan subscribers who had                  costs at a high cost to the Medicare                   three types of policies that
low medical costs. There are many other                  system.                                                Medicare+Choice organizations should
subtle ways in which a                                      Each Medicare+Choice organization                   develop that may help address
Medicare+Choice organization may try                     must implement policies to ensure that                 underutilization and quality of care.
to enroll healthy patient populations in                 inappropriate disenrollment does not                      First, Medicare+Choice organizations
a discriminatory manner (i.e., not                       occur.47 Such policies should include                  should have policies that prohibit
making similar attempts to enroll less                   clarification of when it is appropriate                interference with health care
                                                         for medical personnel to discuss the                   professionals’ advice to enrollees. Also
healthy beneficiaries) and the
                                                         concept of disenrollment. Generally                    known as the ‘‘gag rule,’’ this
organization should implement policies
                                                         speaking, OIG believes it would be                     prohibition extends to advice regarding
actively to prevent such practices.
                                                         inappropriate for medical personnel to                 the patient’s health status, medical care,
c. Disenrollment                                         initiate discussion of disenrollment or to             and treatment options, the risks,
                                                         promote disenrollment (when the topic                  benefits and consequences of treatment
  In general, Medicare+Choice                            is initiated by the enrollee), except in               or non-treatment, or the opportunity for
organizations are prohibited from                        the rare circumstance where the                        the individual to refuse treatment and to
disenrolling, or requesting or                           Medicare+Choice organization cannot or                 express preferences about future
encouraging (either by action or                         does not provide the covered medical                   treatment options.51 Failure to comply
inaction) an individual to disenroll from                items or services needed by the patient.               with this requirement can lead to
any plan it offers.44 If a                                                                                      sanctions.52
Medicare+Choice organization acts to                     d. Underutilization and Quality of Care                   Second, Medicare+Choice
expel or refuses to reenroll an                            Medicare+Choice organizations must                   organizations should be sure, to they
individual in violation of the statute, a                ensure that all covered services are                   extent that they utilize physician
civil money penalty or other sanction                    available and accessible to all                        incentive plans (PIPs) in their payment
can be imposed on the organization.45                    enrollees.48 The OIG views the                         arrangements with individual
The OIG is particularly concerned about                  inappropriate withholding or delay of                  physicians or physician groups, that
disenrollment in light of its recent                     services, known as underutilization or                 they comply with all applicable
review, which revealed that there was a                                                                         regulations and that such payment
problem with disenrollment of                               46 Review of Inpatient Services Performed on        arrangements are fully disclosed to
                                                         Beneficiaries After Disenrolling from Medicare         HCFA as required by regulation. The
                                                         Managed Care.’’ (A–07–98–01256) (May 1999).            PIPs raise utilization concerns because
Medicare+Choice organizations to give Medicare              47 Such policies should be consistent with the
beneficiaries nominal value gifts, provided that the                                                            they are defined as ‘‘any compensation
                                                         provisions that prohibit Medicare+Choice
plan offers these gifts whether or not the beneficiary   organizations from restricting a health care
enrolls in the plan. HCFA defines nominal value as       professional from advising patients of the ‘‘health       49 Medicare+Choice organizations can be subject
an item having little or no resale value (generally,     status of the individual or medical care or            to sanctions for failing substantially to provide
less than $10), which cannot be readily converted        treatment for the individual’s condition or disease,   medically necessary items and services that are
into cash. See Marketing Guide, Chapter II. The use      regardless of whether benefits for such care or        required to be provided, if the failure has adversely
of inducements is also discussed in Section              treatment are provided under the plan.’’ See 42        affected (or has the substantial likelihood of
II.A.2.f.—Anti-kickback and Other Inducements.           U.S.C. 1852(j)(3)(emphasis added).                     adversely affecting) the individual. 42 U.S.C.
   43 42 CFR 422.66(d).                                     48 42 U.S.C. 1395w–22. To this end,                 1395w–27(g)(1)(A).
   44 Medicare+Choice organizations are entitled to                                                                50 See QISMC Standards 2.1.2, 2.2.2 and 3.1.
                                                         Medicare+Choice organizations must comply with
disenroll individuals under certain circumstances,       the standards contained in the Quality                    51 42 U.S.C. 1395w–22(j)(3), 42 CFR 422.206;

e.g., failure to pay premiums or engagement in           Improvement System for Managed Care (QISMC) for        QISMC Standard 3.3.1.7.
disruptive behavior. 42 CFR 422.74.                      Organizations Contracting with Medicare or                52 42 U.S.C. 1395w–27(g)(1)(F); 42 CFR 422.750
   45 42 U.S.C. 1395w–27(g)(1)(C).                       Medicaid.                                              through 422.760.
61900                        Federal Register / Vol. 64, No. 219 / Monday, November 15, 1999 / Notices

arrangement to pay a physician or                          forms 59 to requirements for the timely                 Medicare+Choice organization should
physician group that may directly or                       submission of disenrollment notices.60                  exercise due diligence to ensure that
indirectly have the effect of reducing or                  These requirements cover the gamut of                   these systems are working properly. The
limiting services provided to any plan                     requirements with which a                               exact methods used by the
enrollees.’’ 53 Any PIP operated by a                      Medicare+Choice organization must                       Medicare+Choice organization to
Medicare+Choice organization must                          comply and are too detailed to                          accomplish this can be determined by
comply with the following                                  enumerate in this document.                             the organization, however, it should
requirements. First, it may make no                        Medicare+Choice organizations should                    ordinarily conduct sample audits and
payments to physicians (such as                            establish a policy that all required                    spot checks of this system to verify
offerings of monetary value, including,                    submissions to HCFA be accurate,                        whether it is yielding accurate
but not limited to, stock options or                       timely and complete and that all                        information.
waivers of debt 54) to reduce or limit                     appropriate reporting requirements are                    The knowing submission of false
medically necessary services furnished                     met.61                                                  information to HCFA can lead to serious
to any particular enrollee. Second, if the                    The OIG is particularly concerned                    criminal or civil penalties.63
PIP puts a physician or physician group                    that Medicare+Choice organizations                      Medicare+Choice organizations should
at ‘‘substantial financial risk’’ 55 for                   submit accurate data when that                          implement policies so that the
referral services, the Medicare+Choice                     information determines the amount of                    enrollment, encounter and ACR data
organization must: (1) survey current                      payment received from HCFA. The                         submitted to HCFA are accurate,
and previously enrolled members to                         regulations require that when a                         complete and truthful. While
assess access to, and satisfaction with,                   Medicare+Choice organization requests                   information from a variety of sources
the quality of services; and (2) assure                    payment under the contract, the CEO or                  can affect this data, Medicare+Choice
that there is adequate and appropriate                     CFO must certify the accuracy,                          organizations should take note of two
stop-loss protection.56 Finally,                           completeness and truthfulness of                        reports issued by the OIG that have
Medicare+Choice organizations must                         relevant data, including enrollment                     identified concerns in two aspects of
disclose to HCFA certain information                       data, encounter data and information                    this data.
regarding their PIPs. These disclosure                     provided as part of an adjusted                           First, the OIG recommends that
requirements apply to direct contracting                   community rate (ACR) proposal.62 When                   Medicare+Choice organizations have
arrangements, as well as subcontracting                    a Medicare+Choice organization                          policies and procedures in place that
arrangements.57                                            submits this type of data to HCFA, it is                ensure that the administrative
                                                           making a ‘‘claim’’ for capitation                       component of the ACR is calculated
   Finally, the OIG is aware of cases in                   payment in the amount dictated by the                   accurately.64 As part of this process,
which beneficiaries have received                          data submitted, or in the case of the                   Medicare+Choice organizations should
covered services from individuals that                     ACR submission, a ‘‘claim’’ to retain the               have clearly defined criteria for
were not appropriately licensed. Given                     portion of the capitation amount that is                claiming reimbursement for their
the serious quality of care implications                   under the average payment rate, rather                  administrative costs. These costs should
of this type of practice, the OIG is                       than providing additional benefits.                     not include any costs that are directly
particularly concerned that                                When a Medicare+Choice organization                     associated with furnishing patient care.
Medicare+Choice organizations have                         is claiming payment (or the right to                    All such costs should be allocated to the
procedures for the selection of                            retain payment) based upon information                  applicable operating component. The
providers, including criteria for the                      submitted to HCFA, it must take                         OIG has articulated serious concerns
credentialing of providers. This process                   responsibility for having taken                         about the methodology used by
should include an application,                             reasonable steps to assure the accuracy                 managed care organizations in
verification of information and a site                     of this information. The attestation                    computing their administrative rate on
visit, where applicable.58 The                             forms developed by HCFA for this                        the ACR proposal.65 For example,
information that must be verified                          purpose require certification that the                  computing an administrative rate based
includes that the individual has a valid                   information submitted is true and                       on the use of a medical utilization factor
license to practice, clinical privileges in                accurate based on best knowledge,                       could generate a payment that is almost
good standing and appropriate                              information and belief.                                 three times what would be charged on
educational qualifications.                                   The requirement that the CEO or CFO                  the commercial side.
e. Data Collection and Submission                          certify as to the accuracy, completeness                  Second, the OIG recommends that
Processes                                                  and truthfulness of data, based on best                 Medicare+Choice organizations have
                                                           knowledge, information and belief, does                 adequate internal controls in place to
   The regulations implementing the                        not constitute an absolute guarantee of                 ensure that the institutional status of
Medicare+Choice program contain                            accuracy. Rather, it creates a duty on the
numerous requirements relating to the                      Medicare+Choice organization to put in                    63 Falsification of documentation in any

data collection and submission process,                    place an information collection and                     application for any benefit or payment under a
                                                           reporting system reasonably designed to                 Federal health care program is a Federal offense
ranging from a requirement for an                                                                                  punishable by not more than $25,000 or
effective system for receiving,                            yield accurate information. Further, the                imprisonment for 5 years, or both. See 42 U.S.C.
controlling and processing election                                                                                1320a–7b. In addition, a CMP can be imposed for
                                                             59 42 CFR 422.60(e).                                  the misrepresentation or falsification of information
  53 42
                                                             60 42 CFR 422.66(b)(3)(i).                            submitted to HCFA under Medicare+Choice. See 42
         CFR 422.208.                                        61 On a related topic, Medicare+Choice                U.S.C. 1395w–27(g)(1)(E).
   54 42 U.S.C. 1395w–22(j)(4); 42 CFR 422.208.
                                                                                                                     64 The administrative component of the ACR
                                                           organizations should also be sure that their
   55 ‘‘Substantial financial risk’’ threshold is set at
                                                           computer systems are Year 2000 (Y2K) compliant.         covers any management, financial or other costs
25 percent of potential payments for covered               An OIG report indicates that managed care               that are incurred by or allocated to a business unit
services, regardless of the frequency of assessment        organizations have made significant progress in this    for the management or administration of the
(i.e., collection) or distribution of payments. 42 CFR     regard, with more than 80% indicating that they are     business unit as a whole.
422.208.                                                   Y2K compliant. ‘‘Y2K Readiness of Managed Care            65 See, e.g.,‘‘Administrative Costs Submitted by
   56 42 CFR 422.208(c).
                                                           Organizations.’’ (OEI–05–98–0591)(October 1999).        Risk-Based Health Maintenance Organizations on
   57 42 CFR 422.210(a).                                     62 42 CFR 422.502(l) and (m). See also Contract for   the Adjusted Community Rate Proposals are Highly
   58 42 CFR 422.204.                                      Year 2000, Attachments A, B and C.                      Inflated.’’ (A–14–97–00202) (July 1998).
                            Federal Register / Vol. 64, No. 219 / Monday, November 15, 1999 / Notices                                              61901

beneficiaries is reported accurately.66 A                or even beneficial, commercial managed                  of service networks. Consequently,
recent report issued by the OIG                          care arrangements implicate the statute                 although neither a managed care
estimated that risk-based HMOs                           and may subject them to criminal                        organization receiving a capitated
received Medicare overpayments of                        prosecution and administrative                          payment from a Federal health care
$22.2 million for beneficiaries                          sanctions.                                              program nor its contractors or
incorrectly classified as                                   The OIG recognizes that when                         subcontractors has an incentive to
institutionalized.67 The incorrect                       managed care organizations are paid a                   overutilize items or services or pass
classification was largely due to                        capitated amount for all of the services                additional costs back to the Federal
deficiencies in the HMOs internal                        they provide regardless of the dates,                   health care programs under the
controls in two areas: (1) Verification of               frequency or type of services, there is no              capitated arrangement, we are
beneficiaries’ institutional status; and                 incentive for them to overutilize. In any               concerned that a managed care
(2) reporting of institutional                           event, even if overutilization occurs, the              organization or contractor may offer (or
beneficiaries to HCFA. The results were                  Federal health care programs are not at                 be offered) a reduced rate for its items
based on audits of eight randomly                        risk for these increased costs.                         or services in the Federal capitated
selected HMOs.                                           Accordingly, OIG will be issuing a safe                 arrangement in order to have the
                                                         harbor from the anti-kickback statute                   opportunity to participate in other
f. Anti-Kickback Statute and Other                       that will provide protection for certain                product lines that do not have stringent
Inducements                                              financial arrangements between                          payment or utilization constraints. This
   The anti-kickback statute provides                    managed care organizations (including                   practice is a form of a practice known
criminal penalties for individuals or                    Medicare+Choice organizations) and                      as ‘‘swapping;’’ in the case of managed
entities that knowingly and willfully                    individuals or entities with whom they                  care arrangements, low capitation rates
offer, pay, solicit or receive                           contract for the provision of health care               could be traded for access to additional
remuneration to induce the referral of                   items or services, where a Federal                      fee-for-service lines of business. We are
business reimbursable under a Federal                    health care program pays such                           concerned when these discounts are in
health care program (including                           organizations on a capitated basis.70                   exchange for access to fee-for-service
Medicare and Medicaid).68 The OIG has                       In general, the safe harbor protects                 lines of business, where there is an
promulgated safe harbor regulations that                 payments between capitated managed                      incentive to overutilize services
define practices that are not subject to                 care organizations (including                           provided to Federal health care program
the anti-kickback statute because such                   Medicare+Choice organizations offering                  beneficiaries.
practices would be unlikely to result in                 coordinated care plans) and individuals                    For example, we would have concerns
fraud or abuse.69                                        or entities with which it has direct                    where an HMO with a Medicare risk
   The anti-kickback statute potentially                 contracts to provide or arrange for the                 contract under Medicare Part C also has
applies to many managed care                             provision of items or services.71 While                 an employer-sponsored PPO that
arrangements because a common                            this is a broad exception, there are three              includes retirees and requires
strategy of these arrangements is to offer               important limitations.                                  participating providers to accept a low
physicians, hospitals and other                             The first significant limitation is that             capitation rate for the Medicare HMO
providers increased patient volume in                    there is no protection if the financial                 risk patients in exchange for access to
return for substantial fee discounts.                    arrangements under the managed care                     the Medicare fee-for-service patients in
Because discounts to managed care                        agreement are implicitly or explicitly                  the PPO. Although in such
organizations can constitute                             part of a broader agreement to steer fee-               circumstances the cost to the Medicare
‘‘remuneration’’ within the meaning of                   for-service Federal health care program                 program for the risk-based HMO
the anti-kickback statute, a number of                   business to the entity giving the                       beneficiaries will not be increased, there
health care providers have expressed                     discount to induce the referral of                      may be increased expenditures for
concern that many relatively innocuous,                  managed care business. Specifically, we                 Medicare beneficiaries in the PPO
                                                         understand that most managed care                       arrangement, because the providers may
  66 This will remain a concern until risk               organizations have multiple                             have an incentive to increase services to
adjustment is fully implemented.                         relationships with their contractors and                the Medicare enrollees in the PPO to
  67 ‘‘Review of Medicare Managed Care Payments
                                                         subcontractors for the provision of                     offset the discounted rates to the
for Beneficiaries with Institutional Status.’’ (A–05–    services for various product lines,
98–00046)(April 1999).                                                                                           Medicare HMO. Accordingly, such
  68 42 U.S.C. 1320a–7b(b). If it is determined that     including non-federal HMOs, preferred                   arrangements could violate the anti-
a party has violated the anti-kickback statute, the      provider organizations (PPOs) and point                 kickback statute and should not be
individual or entity can be excluded from                                                                        protected.
participation in the Medicare and other Federal             70 This safe harbor was developed in accordance
                                                                                                                    A second limitation on the regulatory
health care programs (as defined in 42 U.S.C.            with section 216 of HIPAA and section 14 of the
1320a–7b(f)). 42 U.S.C. 1320a–7(b)(7). In addition,
                                                                                                                 safe harbor protection is that it only
                                                         Medicare and Medicaid Patient and Program
there is an administrative CMP provision for             Protection Act of 1987 (Pub. L. 100–93) through a       applies to remuneration for health care
violating the anti-kickback statute (42 U.S.C. 1320a–    negotiated rulemaking process that began in the         items and services and those items or
7a(a)(7)).                                               spring of 1997. For a more detailed description of      services reasonably related to the
  69 42 CFR 1001.952. The safe harbors set forth         the negotiated rulemaking, see the Committee            provision of health care items and
specific conditions that, if met, assure entities        Statement of the Negotiated Rulemaking Committee
involved of not being prosecuted or sanctioned for       on the Shared Risk Exception (January 22, 1998),        services. It does not cover marketing
the arrangement qualifying for the safe harbor.          which can be found on the Internet at http://           services or any services provided prior
However, safe harbor protection is afforded only to      www.hhs.gov/oig/.                                       to a beneficiary’s enrollment in a health
those arrangements that precisely meet all of the           71 In addition, arrangements between direct
                                                                                                                 plan.
conditions set forth in the safe harbor. The failure     contractors and all subcontractors or successive
of an arrangement to fit inside a safe harbor or         tiers of subcontractors are protected, as long as the
                                                                                                                    Finally, the broad protection is
statutory exception does not mean that the               arrangement is for the provision of health care items   limited to risk-based managed care
arrangement is illegal. It is incorrect to assume that   or services that are covered by the arrangement         plans that do not claim any payment
arrangements outside of a safe harbor are suspect        between the direct contractor and the managed care      from a Federal health care program
due to that fact alone. That an arrangement does not     organization and the arrangement meets the
meet a safe harbor only means that the arrangement       requirements applicable to arrangements between
                                                                                                                 other than the capitated amount set
does not have guaranteed protection and must be          the direct contractor and the managed care              forth in the managed care organization’s
evaluated on a case-by-case basis.                       organization.                                           agreement with the Federal health care
61902                      Federal Register / Vol. 64, No. 219 / Monday, November 15, 1999 / Notices

program. Where the managed care plan,                  organizations to induce a beneficiary to              perspective at the time of presentation
its contractors or its subcontractors are              use a particular provider, practitioner or            of the symptoms 76 Finally,
permitted to seek additional payments                  supplier once the beneficiary has                     Medicare+Choice organizations must
from any of the Federal health care                    enrolled in a plan are within the                     comply with all guidelines relating to
programs, the regulatory safe harbor                   purview of this CMP and are prohibited                the efficient and timely coordination of
protection is significantly more limited.              if they do not meet an exception. For                 appropriate maintenance and post-
For example, protection is not extended                example, incentives given to                          stabilization of an enrollee after the
to arrangements with subcontractors                    beneficiaries by a particular physician               enrollee has been stabilized under the
when the contract under section 1876 of                group within the physician panel of a                 anti-dumping statute.77
the Social Security Act is cost-based or               Medicare+Choice organization to                         Medicare+Choice organizations
where the prime contract is protected                  encourage the beneficiary to use that                 should be particularly careful of the
solely because the contracting entity is               physician group over another physician                requirements of the anti-dumping
a Federally-qualified HMO.72 In the first              in the panel would be prohibited.                     statute in the event that they participate
instance, reimbursement from the                       g. Emergency Services                                 in the so-called ‘‘dual staffing’’ of
Federal health care program is based on                                                                      emergency departments. Dual staffing
costs, and in the latter case, services for               The OIG and HCFA believe that there                occurs when hospitals enter into
Medicare enrollees are reimbursed on a                 may be special concerns regarding the                 arrangements allowing a managed care
fee-for-services basis. In both instances,             provision of emergency services to                    organization to station its own
reimbursement will increase with                       enrollees of Medicare+Choice plans.                   physicians in the hospital’s emergency
utilization, thus providing the same                   The anti-dumping statute 74 imposes                   department for the purpose of screening
incentive to overutilize as any fee-for-               specific obligations on Medicare-                     and treating managed care enrollees.
service payment methodology.                           participating hospitals that offer                    Implementation of dual staffing raises
   While the new safe harbor will                      emergency services to individuals                     some concerns under the anti-dumping
provide protection from the anti-                      presenting themselves at the hospital                 statute, particularly where different
kickback statute for most arrangements                 seeking possible emergency treatment.                 procedures and protocols have been
between Medicare+Choice organizations                  While the obligations under the anti-                 established for each staff.
and their contractors, Medicare+Choice                 dumping statute prohibit a hospital                     In addition, Medicare+Choice
organizations should also have policies                from inquiring into the patient’s method              organizations should be particularly
in place that ensure that any incentives               of payment or insurance status when it                careful in operating ‘‘urgent care’’
that the Medicare+Choice organization                  results in the delay of a medical
                                                                                                             services and in instructing enrollees to
offers directly or indirectly to                       screening examination and/or
                                                                                                             contact such services when enrollees
beneficiaries and potential beneficiaries              stabilizing treatment, it has come to our
                                                                                                             need care. The organizations should
do not run afoul of the anti-kickback                  attention that some hospitals routinely
                                                                                                             ensure that such operations and
statute or the new civil money penalty                 seek prior authorization from the
                                                                                                             instructions do not delay or otherwise
relating to incentives to beneficiaries.73             patient’s primary care physician or from
                                                                                                             compromise enrollees’ access to services
The CMP was enacted in section 231(h)                  the managed care plan when a managed
                                                                                                             that should be provided in a hospital
of HIPAA (42 U.S.C. 1320a–7a(a)(5)) and                care patient requests emergency
                                                                                                             emergency room.
imposes sanctions against individuals or               services. Investigations of allegations of
entities that offer remuneration to a                  the anti-dumping statute across the                   3. Retention of Records and Information
program beneficiary that they know, or                 country have persuaded the OIG that                   Systems
should know, will influence the                        managed care patients may be at risk of
                                                                                                                Medicare+Choice organizations’
beneficiary’s decision to order or receive             being discharged or transferred without
                                                                                                             compliance programs should provide
items or services from a particular                    receiving a medical screening
                                                                                                             for the implementation of a records
provider, practitioner or supplier                     examination, largely because of the
                                                                                                             retention system. This system should
reimbursable by Medicare or the State                  problems inherent in seeking ‘‘prior
                                                                                                             establish policies and procedures
health care programs.                                  authorization.’’
                                                          To ensure appropriate access to                    regarding the creation, distribution,
   Pending the publication of the final                                                                      retention, storage, retrieval and
                                                       emergency services for
rule implementing this CMP, we can                                                                           destruction of documents. The three
                                                       Medicare+Choice enrollees,
provide the following guidance. It is our                                                                    types of documents developed under
                                                       Medicare+Choice organizations should
view that organizations that provide                                                                         this system should include: (1) All
                                                       comply with several key provisions.
incentives to Federal health care                                                                            records and documentation required by
                                                       First, Medicare+Choice organizations
program beneficiaries to enroll in a plan                                                                    either Federal or State law and the
                                                       are prohibited from requiring prior
are not offering remuneration to induce                                                                      program requirements of Federal and
                                                       authorization for emergency services
the enrollees to use a particular                                                                            State health plans; 78 (2) records listing
                                                       and must provide coverage for such
provider, practitioner or supplier.                                                                          the persons responsible for
                                                       services without regard to the
Accordingly, we anticipate that                                                                              implementing each part of the
                                                       emergency care provider’s contractual
organizations that provide incentives to               relationship with the Medicare+Choice                 compliance plan; and (3) all records
enroll in a plan will not be subject to                organization.75 Second, payment must                  necessary to protect the integrity of the
sanctions under this provision.                        be provided for emergency services                    Medicare+Choice organization’s
However, incentives provided by                        based on a ‘‘prudent layperson                        compliance process and confirm the
                                                       standard,’’ which means that the need                 effectiveness of the program. The
  72 The arrangements may qualify for other safe
                                                       for emergency services should be                      documentation necessary to satisfy the
harbors, such as the discount or personal services
safe harbors.                                          determined from a reasonable patient’s                third category includes, but is not
  73 Our concerns regarding the use of inducements
                                                         74 42                                                 76 42 U.S.C. 1395w–22(d)(3).
in a manner that leads to enrollment of only healthy           U.S.C. 1395dd.
                                                                                                               77 42 U.S.C. 1395w–22(d)(2).
beneficiaries, such as offering memberships to           75 42 U.S.C. 1395w–22(d)(1)(E). Medicare+Choice
exercise clubs for purposes of patient screening, is   organizations should not offer, or enter into,          78 These documents should be maintained for the

discussed above in Section II.A.2.b.—Selective         contracts with hospitals that are inconsistent with   periods required by the HCFA Medicare+Choice
Marketing and Enrollment.                              the anti-dumping statute.                             regulations.
                           Federal Register / Vol. 64, No. 219 / Monday, November 15, 1999 / Notices                                                    61903

limited to the following: evidence of               adequately their subordinates or for                     enables the compliance officer to review
adequate employee training; reports                 failure to detect noncompliance with                     contracts and obligations (seeking the
from the Medicare+Choice                            applicable policies and legal                            advice of legal counsel, where
organization’s hotline; results of any              requirements, where reasonable                           appropriate) that may contain referral
investigation conducted as a                        diligence on the part of the manager or                  and payment provisions that could
consequence of a hotline call;                      supervisor should have led to the                        violate statutory or regulatory
modifications to the compliance                     discovery of any problems or violations.                 requirements.
program; all written notifications to               B. Designation of a Compliance Officer                      Coordination and communication are
providers regarding compliance                      and a Compliance Committee                               the key functions of the compliance
activities; 79 and the results of the                                                                        officer with regard to planning,
Medicare+Choice organization’s                      1. Compliance Officer                                    implementing and monitoring the
auditing and monitoring efforts.                       Every Medicare+Choice organization                    compliance program. With this in mind,
   In light of the increasing reliance on           should designate a compliance officer to                 the OIG recommends that the
electronic data interchange by the                  serve as the focal point for compliance                  Medicare+Choice organization’s
health care industry, Medicare+Choice               activities. This responsibility may be the               compliance officer closely coordinate
organizations should take particular                individual’s sole duty or added to other                 compliance functions with providers’
care in establishing procedures for                 management responsibilities, depending                   compliance officers.
maintaining the integrity of its data               upon the size and resources of the                          The compliance officer should have
collection systems. This should include             Medicare+Choice organization and the                     sufficient funding and staff to fully
procedures for regularly backing-up data            complexity of the task.                                  perform his or her responsibilities.
(either by diskette, restricted system or              Designating a compliance officer with                 These duties should include:
tape) collected in connection with all              the appropriate authority is critical to                    • Overseeing and monitoring the
aspects of the Medicare+Choice program              the success of the program, necessitating                implementation of the compliance
requirements.                                       the appointment of a high-level official                 program; 82
   In addition, all Medicare+Choice                 in the Medicare+Choice organization                         • Reporting on a regular basis to the
organizations should develop and                    with direct access to the company’s                      Medicare+Choice organization’s
implement policies and procedures to                governing body, the CEO and all other                    governing body, CEO and compliance
ensure the confidentiality and privacy              senior management and legal counsel.81                   committee on the progress of
of financial, medical, personnel and                While it is important that the                           implementation;
other sensitive information in their                compliance officer have appropriate                         • Periodically revising the program in
possession.80 These policies should                 authority, we are not suggesting that the                light of changes in the organization’s
address both electronic and hard copy               compliance officer should have                           needs and in the law and policies and
documents.                                          operational responsibility for the                       procedures of Government and private
                                                    various aspects of the Medicare+Choice                   payor health plans;
4. Compliance as an Element of a                    program. For example, the compliance                        • Reviewing employees’ certifications
Performance Plan                                    officer should have full authority to stop               stating that they have received, read and
   Compliance programs should require               the submission of data that he or she                    understood the standards of conduct;
that the promotion of, and adherence to,            believes is problematic until such time                     • Developing, coordinating and
the elements of the compliance program              as the issue in question has been                        participating in a multifaceted
be a factor in evaluating the                       resolved. In addition, the compliance                    educational and training program that
performance of all relevant employees.              officer should be copied on the results                  focuses on the elements of the
Such employees should be periodically               of all internal audit reports and work                   compliance program and seeks to ensure
trained in new compliance policies and              closely with key managers to identify                    that all appropriate employees and
procedures.                                         aberrant trends in the areas that require                management are knowledgeable of, and
   Policies should require that managers:           certification. The compliance officer                    comply with, pertinent Federal and
   • Discuss with all relevant employees            must have the authority to review all                    State standards;
the compliance policies and legal                   documents and other information that                        • Coordinating personnel issues with
requirements applicable to their                    are relevant to compliance activities,                   the Medicare+Choice organization’s
function;                                           including, but not limited to, enrollee                  human resources/personnel office (or its
   • inform all relevant personnel that             records (where appropriate) and records                  equivalent) to ensure that providers and
strict compliance with these policies               concerning the marketing efforts of the                  employees do not appear in the List of
and requirements is a condition of                  organization and the Medicare+Choice                     Excluded Individuals/Entities and the
employment; and                                     organization arrangements with other                     General Services Administration (GSA)
   • Disclose to all relevant personnel             parties, including employees,                            list of debarred contractors; 83
that the Medicare+Choice organization               professionals on staff, relevant                            • Assisting the Medicare+Choice
will take disciplinary action up to and             independent contractors, suppliers,                      organization’s management in
including termination for violation of              agents and physicians. This policy                       coordinating internal compliance
these policies or requirements.                                                                              review and monitoring activities,
   In addition to making performance of               81 The OIG believes that it is not advisable for the
                                                                                                             including annual or periodic reviews of
these duties an element in evaluations,             compliance function to be subordinate to the
                                                    Medicare+Choice organization’s general counsel,          departments;
the compliance officer or company                   comptroller or similar company financial officer.           • Independently investigating and
management should include a policy                  Free-standing compliance functions help to ensure        acting on matters related to compliance,
that managers and supervisors will be               independent legal reviews and financial analyses of
                                                    the institution’s compliance activities. By
                                                                                                             including the flexibility to design and
sanctioned for failure to instruct                  separating the compliance function from the key
                                                                                                               82 For multi-site Medicare+Choice organizations,
                                                    management positions of general counsel or CFO
  79 This should include notifications regarding:                                                            the OIG encourages coordination with each facility
                                                    (where the size and structure of the organization
quality of care issues; confusing or inaccurate     make this a feasible option), a system of checks and     owned by the Medicare+Choice organization
encounter data; and termination of the contract.    balances is established to more effectively achieve      through the use of compliance liaisons at each site.
  80 42 U.S.C. 1395w–22(h); 42 CFR 422.118.         the compliance program’s goals.                            83 See note 101.
61904                     Federal Register / Vol. 64, No. 219 / Monday, November 15, 1999 / Notices

coordinate internal investigations (e.g.,             providers, to develop standards of                       The OIG recommends that attendance
responding to reports of problems or                  conduct and policies and procedures                   and participation at training programs
suspected violations) and any resulting               that promote allegiance to the                        be made a condition of continued
corrective action with all departments,               organization’s compliance program;                    employment and that failure to comply
providers, agents, and, if appropriate,                  • Recommending and monitoring, in                  with training requirements should result
independent contractors;                              conjunction with the relevant                         in disciplinary action, including
   • Developing policies and programs                 departments, the development of                       possible termination, when such failure
that encourage managers and employees                 internal systems and controls to carry                is serious. The Medicare+Choice
to report suspected fraud and other                   out the organization’s standards,                     organization should retain adequate
improprieties without fear of retaliation;            policies and procedures as part of its                records of its training of employees,
and                                                   daily operations;                                     including attendance logs and material
   • Continuing the momentum of the                      • Determining the appropriate                      distributed at training sessions. New
compliance program and the                            strategy/approach to promote                          employees should be targeted for
accomplishment of its objectives long                 compliance with the program and                       training early in their employment, and
after the initial years of implementation.            detection of any potential violations,                to the extent that they perform
                                                      such as through hotlines and other fraud              complicated tasks with greater
2. Compliance Committee
                                                      reporting mechanisms;                                 organizational legal exposure, should be
   The OIG recommends that a                             • Developing a system to solicit,                  monitored closely until all training is
compliance committee be established to                evaluate and respond to complaints and                completed.
advise the compliance officer and assist              problems; and
in the implementation of the                             • Monitoring internal and external                 a. General Sessions
compliance program.84 When                            audits and investigations for the                        As part of their compliance programs,
assembling a team of people to serve as               purpose of identifying troublesome                    Medicare+Choice organizations should
the Medicare+Choice organization’s                    issues and deficient areas experienced                require all employees to attend annual
compliance committee, the company                     by the Medicare+Choice organization                   training that emphasizes the
should include individuals with a                     and implementing corrective and                       organization’s commitment to
variety of skills.85 The OIG strongly                 preventive action.                                    compliance with all Federal and State
recommends that the compliance officer                   The committee may also address other               statutes and requirements, and the
manage the compliance committee.                      functions as the compliance concept                   policies of private payors. While the
Once a managed care organization                      becomes part of the overall operating                 OIG recognizes that not all standards,
chooses the people that will accept the               structure and daily routine.                          policies and procedures need to be
responsibilities vested in members of                                                                       communicated to all employees, it
the compliance committee, the                         C. Conducting Effective Training and
                                                      Education                                             believes that the general message about
organization must train these                                                                               the importance of complying with fraud
individuals on the policies and                          The proper education and training of               and abuse laws and other ethical areas
procedures of the compliance program.                 corporate officers, managers, employees               should be addressed and made part of
   The committee’s responsibilities                   and the continual retraining of current               the general training.
should include:                                       personnel at all levels are significant                  As part of the initial training, the
   • Analyzing the organization’s                     elements of an effective compliance                   standards of conduct should be
regulatory environment, the legal                     program. Where appropriate, the                       distributed to all employees. Every
requirements with which it must                       Medicare+Choice organization may                      employee should be required to sign
comply and specific risk areas;                       afford its contractors the opportunity to             and date a statement that reflects the
   • Assessing existing policies and                  participate in the organization’s                     employee’s knowledge of, and
procedures that address these areas for               compliance training and educational                   commitment to the standards of
possible incorporation into the                       programs.86 The contractors should be                 conduct. This attestation should be
compliance program;                                   encouraged to develop their own                       retained in the employee’s personnel
   • Working with appropriate                         compliance programs that complement                   file. The standards of conduct should be
departments, as well as affiliated                    the Medicare+Choice organization’s                    updated and revised as appropriate.
                                                      compliance program.
   84 The compliance committee benefits from                                                                b. Specialized Training
having the perspectives of individuals with varying   1. Formal Training Programs
responsibilities in the organization, such as                                                                  Because Medicare+Choice
operations, finance, audit, human resources,             To ensure the appropriate information              organizations are responsible for
utilization review, medicine, claims processing,      is being disseminated to the correct                  compliance in all of the risk areas
information systems, legal, marketing, enrollment     individuals, the Medicare+Choice                      mentioned in section II.A. above, the
and disenrollment as well as employees and
managers of key operating units. These individuals
                                                      organization training program should                  OIG recommends Medicare+Choice
should have the requisite seniority and               include both a general session and                    organizations require individuals who
comprehensive experience within their respective      specialized sessions on specific risk                 are involved in the risk areas to receive
departments to implement any necessary changes in     areas. All employees should attend the                specialized training. For example,
the company’s policies and procedures. Some
organizations have found it helpful to include an
                                                      general session on compliance.                        marketing employees should receive
outside director on its compliance committee to       Employees whose job responsibilities                  training on the marketing, enrollment,
provide a different perspective.                      implicate specific risk areas (e.g.,                  disenrollment and anti-kickback
   85 A Medicare+Choice organization should expect
                                                      marketing or data collection and                      policies. All employees who work with
its compliance committee members and compliance       submission) should attend the
officer to demonstrate high integrity, good
                                                                                                            beneficiaries or providers regarding
judgment, assertiveness and an approachable           specialized sessions.                                 medical services should receive
demeanor, while eliciting the respect and trust of                                                          appropriate training on the risks
employees of the organization. The compliance           86 While some Medicare+Choice organizations
                                                                                                            associated with underutilization. Those
committee members should also have significant        may encourage providers to participate in education
professional experience in working with quality       programs designed for its own employees, other
                                                                                                            employees who are involved in
assurance, enrollment, marketing, clinical records    organizations may prefer to develop provider-         developing enrollment, encounter and
and auditing principles.                              specific education programs about compliance.         ACR data should receive training on
                     Federal Register / Vol. 64, No. 219 / Monday, November 15, 1999 / Notices                                         61905

HCFA policies in these areas. Clarifying     during its ongoing audits and risk            mechanism 87 through which
and emphasizing these areas of concern       analysis, while reinforcing the               employees, enrollees or other parties
through training and educational             company’s firm commitment to the              can report potential violations of the
programs are particularly relevant to a      general principles of compliance and          organization’s compliance policies or of
Medicare+Choice organization’s               ethical conduct. The newsletter could         Federal or State health care program
marketing and financial personnel, in        also include the risk areas identified in     requirements. In any event, several
that the pressure to meet business goals     current OIG publications or                   independent reporting paths should be
may render these employees                   investigations. Finally, the                  created for an employee to report fraud,
particularly vulnerable to engaging in       Medicare+Choice organization could            waste or abuse so that such reports
prohibited practices.                        use the newsletter as a mechanism to          cannot be diverted by supervisors or
  The OIG recommends                         notify employees of significant legal or      other personnel. If the organization
Medicare+Choice organizations’               regulatory developments. The                  establishes a hotline, the telephone
compliance programs address the need         Medicare+Choice organization should           number should be made readily
for periodic professional education          maintain its newsletters in a central         available to all employees, enrollees and
courses for relevant personnel. Such         location to document the guidance             independent contractors, by circulating
courses would be in addition to the          offered and provide new employees             the number on wallet cards or
internal training sessions provided by       with access to guidance previously            conspicuously posting the telephone
the organization.                            provided. Other written materials, such       number in common work areas.88
                                             as posters, fliers or articles in other          Matters reported through the hotline
c. Format of the Training Program
                                             company publications, could also be           or other communication sources that
   The OIG suggests all relevant levels of                                                 suggest violations of compliance
                                             used to disseminate the compliance
personnel be made part of various                                                          policies, Federal and State health care
                                             message.
educational and training programs of                                                       program requirements, regulations or
the Medicare+Choice organization.               Another effective method of                statutes should be documented and
Employees should be required to have a       maintaining the presence of the               investigated promptly to determine their
minimum number of educational hours          compliance message is to maintain a           veracity and significance. A log should
per year, as appropriate, as part of their   website devoted to compliance issues.         be maintained by the compliance officer
employment responsibilities. A variety       This could be linked to the homepage of       or authorized designee that records such
of teaching methods, such as interactive     the organization. Many organizations          calls, including the nature of any
training and training in several different   have chosen to maintain these sites           investigation and its results.89 Such
languages (including the translation of      internally on the Intranet to alleviate       information should be included in
standards of conducts and other              any confidentiality concerns. The             reports to the governing body, the CEO
materials), particularly where a             Intranet (or Internet) also facilitates the   and compliance committee.
Medicare+Choice organization has a           use of hypertext links that allow the            Employees, enrollees and providers
culturally diverse staff, should be          organization to maintain a centralized        should be permitted to report matters on
implemented so that all affected             source on statutory, regulatory and other     a confidential basis. To encourage such
employees are knowledgeable about the        program guidance disseminated by              reporting, written confidentiality and
institution’s standards of conduct and       HCFA, the OIG, the Department of              non-retaliation policies should be
procedures for alerting senior               Justice and the Congress. These links,        developed. Employees, enrollees,
management to problems and concerns.         along with any other webpages that the        providers and other contractors should
In addition, the materials should be         Medicare+Choice organization deems            be made aware of these policies to
written at appropriate reading levels for    pertinent and useful can be assembled         encourage communication and the
targeted employees. All training             on a single site that can, by hypertext       reporting of incidents of potential
materials should be designed to take         link, provide access to all of these useful   fraud.90 While the Medicare+Choice
into account the skills, knowledge and       resources.
experience of the individual trainees.                                                        87 The OIG recognizes that it may not be

Post-training tests can be used to assess    D. Developing Effective Lines of              financially feasible for a small Medicare+Choice
the success of training provided and         Communication                                 organization to maintain a telephone hotline
                                                                                           dedicated to receiving calls solely on compliance
employee comprehension of the                  An open line of communication               issues. These companies may explore alternative
Medicare+Choice organization’s policies      between the compliance officer and            methods, e.g., contracting with an independent
and procedures.                              Medicare+Choice organization                  source to provide hotline services or establishing a
                                                                                           written method of confidential disclosure.
2. Informal and Ongoing Compliance           personnel, as well as among the                  88 Medicare+Choice organizations should also

Training                                     organization, health care providers and       post in a prominent, available area the HHS–OIG
                                             enrollees, is critical to the successful      Hotline telephone number, 1–800–447–8477 (1–
   It is essential that compliance issues                                                  800–HHS–TIPS), in addition to any organization’s
                                             implementation of a compliance
remain at the forefront of the                                                             hotline number that may be posted.
                                             program and the reduction of any
Medicare+Choice organization’s                                                                89 To efficiently and accurately fulfill such an
                                             potential for fraud, abuse and waste.         obligation, the Medicare+Choice organization
priorities. The organization must
                                             Each organization should have in place        should create an intake form for all issues identified
demonstrate its commitment by                                                              through reporting mechanisms. The form could
                                             both a mechanism for the reporting of
continuing to disseminate the                                                              include information concerning the date the
                                             improper conduct, as well a mechanism
compliance message. One effective                                                          potential problem was reported, the internal
                                             for more routine types of                     investigative methods utilized, the results of any
mechanism to achieve this goal is to
                                             communication among the compliance            investigation, any corrective action implemented,
publish a monthly compliance                                                               any disciplinary measures imposed and any
                                             officer and relevant groups.
newsletter, or devote a section to                                                         overpayments and monies returned.
compliance in a general weekly or            1. Hotline or Other System for Reports           90 The OIG believes that whistleblowers should be

monthly existing newsletter. This would      of Potential Misconduct                       protected against retaliation, a concept embodied in
                                                                                           the provisions of the False Claims Act. See 31
allow the Medicare+Choice organization                                                     U.S.C. 3730(h). In many cases, employees sue their
to address specific examples of                Each Medicare+Choice organization           employers under the False Claims Act’s qui tam
problems the company encountered             should have in place a hotline or other                                                   Continued
61906                       Federal Register / Vol. 64, No. 219 / Monday, November 15, 1999 / Notices

organization should always strive to                      with providers, communications with       with generally accepted protocols
maintain the confidentiality of the                       beneficiaries and communications with     governing such audits. In particular, the
reporter’s identity, the policies should                  HCFA (and its designees) must             audits should focus on the risk areas
explicitly communicate that there may                     demonstrate the highest level of          identified earlier in this document,
be a point where the individual’s                         integrity, honesty and judgment. The      especially the data and information that
identity may become known or may                          Medicare+Choice organization should       affect payments by Medicare. Finally,
have to be revealed.                                      implement methods to encourage            the Medicare+Choice organization
   The OIG recognizes that assertions of                  communication among its enrollees and     should focus on any areas of specific
fraud and abuse by those who may have                     providers. For example, as appropriate,   concern identified within that
participated in illegal conduct or                        a Medicare+Choice organization should     organization and those that may have
committed other malfeasance raise                         communicate the results of audits,        been identified by any outside agency,
numerous complex legal and                                disenrollment surveys, utilization data   whether Federal or State.
management issues that should be                          and quality of care determinations to its     Monitoring techniques may include
examined on a case-by-case basis. The                     contracting suppliers and providers in    sampling protocols that permit the
compliance officer may wish to work                       order to facilitate open discussion       compliance officer to identify and
closely with legal counsel to obtain                      regarding appropriate health care         review variations from an established
guidance on these issues.                                 delivery.                                 baseline.93 Significant variations from
                                                                                                    the baseline should trigger a reasonable
2. Routine Communication/Access to                        E. Auditing and Monitoring                inquiry to determine the cause of the
the Compliance Officer                                       An ongoing evaluation process is       deviation. If the inquiry determines that
   While it is crucial that                               critical to a successful compliance       the deviation occurred for legitimate,
Medicare+Choice organizations have                        program.92 The OIG believes an effective explainable reasons, the compliance
effective systems in place for the                        program should incorporate thorough       officer or manager may want to limit
reporting of suspected misconduct, it is                  monitoring of its implementation and      any corrective action or take no action.
equally important that the compliance                     regular reporting to senior company       If it is determined that the deviation was
officer foster more routine                               officers. Compliance reports created by   caused by improper procedures,
communication both among its                              this ongoing monitoring, including        misunderstanding of rules, including
employees and among its health care                       reports of suspected noncompliance,       fraud and systemic problems, the
providers and enrollees.                                  should be maintained by the               Medicare+Choice organization should
   With respect to its own employees,                     compliance officer and reviewed with      take prompt steps to correct the
the OIG encourages the establishment of                   the Medicare+Choice organization’s        problem.94 Any overpayments
procedures for personnel to seek                          senior management and the compliance discovered as a result of such deviations
clarification from the compliance officer                 committee. The extent and frequency of should be reported promptly to HCFA
or members of the compliance                              the audit function may vary depending     (or its designees), with appropriate
committee in the event of any confusion                   on factors such as the size of the        documentation and a thorough
or question regarding a company policy,                   company, the resources available to the   explanation of the reason for the
practice or procedure. Questions and                      company, the company’s prior history of overpayment.95
responses should be documented and                        noncompliance and the risk factors that       An effective compliance program
dated and, if appropriate, shared with                    are prevalent in a particular             should also incorporate periodic (at a
other staff so that standards, policies,                  organization. However, all                minimum, annual) reviews of whether
practices and procedures can be                           Medicare+Choice organizations have an the program’s compliance elements
updated and improved to reflect any                       obligation to establish an adequate audit have been satisfied, e.g., whether there
necessary changes or clarifications. The                  function and meet all of HCFA’s           has been appropriate dissemination of
compliance officer may want to solicit                    requirements.                             the program’s standards, training,
employee input in developing these                           Although many monitoring               ongoing educational programs and
communication and reporting systems.                      techniques are available, one effective
The methods discussed above relating to                   tool to promote and ensure compliance        93 The OIG recommends that when a compliance

ongoing training and education are an                     is the performance of regular, periodic   program is established in a Medicare+Choice
integral part of this communication.91                                                              organization, the compliance officer, with the
                                                          compliance audits by internal or          assistance of department managers, take a
   The communication and coordination                     external auditors who have expertise in   ‘‘snapshot’’ of the organization’s operations from a
function of the compliance program                        Federal and State health care statutes,   compliance perspective. This assessment can be
serves an even more critical role in the                  regulations and Federal health care       undertaken by outside consultants, law or
context of the managed care                                                                         accounting firms, or internal staff, with
                                                          program requirements. The audits          authoritative knowledge of health care compliance
environment because the managed care                      should focus on the Medicare+Choice       requirements. This ‘‘snapshot,’’ often used as part
entity serves as an intermediary                          organization’s programs or divisions,     of bench marking analysis, becomes a baseline for
between the health care provider and                      including external relationships with     the compliance officer and other managers to judge
the enrollee. In fact, the raison d’eˆtre of              third-party contractors, specifically
                                                                                                    the Medicare+Choice organization’s progress in
                                                                                                    reducing or eliminating potential areas of
a managed care organization is to                         those with substantive exposure to        vulnerability. Medicare+Choice organizations
coordinate the care of its enrollees. As                  Government enforcement actions. The       should track statistical data on utilization review
                                                          audits should cover the range of          and quality data based on customer satisfaction and
provisions out of frustration because of the                                                        renewal data. This will facilitate identification of
company’s failure to take action when a
                                                          programmatic requirements of the          problem areas and elimination of potential areas of
questionable, fraudulent or abusive situation was         Medicare+Choice program and comply        abusive or fraudulent conduct.
brought to the attention of senior corporate officials.                                                          94 Prompt steps to correct the problem include
  91 In addition to methods of communication used           92 The  OIG recognizes that Medicare+Choice        contacting the appropriate provider in situations
by current employees, an effective employee exit          organizations have a variety of ongoing monitoring   where the provider’s actions contributed to the
interview program could be designed to solicit            processes and would most likely incorporate these    problem.
information from departing employees regarding            existing processes, as appropriate, into their         95 In addition, when appropriate, as referenced in

potential misconduct and suspected violations of          compliance program. We do not anticipate that the    section G, below, reports of fraud or systemic
the Medicare+Choice organization’s policy and             compliance monitoring function would exist           problems should also be made to the appropriate
procedures.                                               entirely independently of the operational program.   Government authority.
                            Federal Register / Vol. 64, No. 219 / Monday, November 15, 1999 / Notices                                            61907

disciplinary actions.96 This process will                current enrollees; 99 and conducting exit             that are part of the Medicare+Choice
verify actual conformance by all                         interviews with former enrollees                      organization to ensure that enrollees are
departments with the compliance                          (particularly those that disenrolled just             receiving adequate access to care. In
program. Such reviews may support a                      prior to obtaining an expensive service)              reviewing service areas,
determination that appropriate records                   on their experience with the                          Medicare+Choice organizations should
have been created and maintained to                      Medicare+Choice marketing and                         collect data on a variety of topics,
document the implementation of an                        enrollment process. Once this data is                 including the number of primary care
effective program.                                       collected, it must be maintained in a                 physicians in the service area, the
   The reviewers involved in any audits                  format that can be accessed readily.                  number and type of specialists in the
should:                                                     In an effort to integrate the monitoring           service area, the waiting time for
   • Possess the qualifications and                      function with its training function, a                appointments, the telephone access to
experience necessary to adequately                       Medicare+Choice organization may
                                                                                                               the Medicare+Choice organization, rates
identify potential issues with the subject               wish to test its marketing staff on their
                                                                                                               of denial of emergency services claims
matter to be reviewed;                                   knowledge of the company’s policies
   • Be independent of the specific                      and procedures, as well as the Federal                and the problems associated with the
functional area examined;                                and State statutes that govern the                    coordination of care. All of this data
   • Have access to existing audit                       marketing process. This assessment can                should be maintained in a database in
resources, relevant personnel and all                    be developed using many formats. Many                 a format that can be used to generate
relevant areas of operation;                             companies have customized interactive                 statistical data and analysis.
   • Present written evaluative reports                  software to test employees’ knowledge                    Medicare+Choice organizations
on compliance activities to the CEO,                     of relevant policies and procedures. It               should ensure that there are adequate
governing body members of the                            may also be formulated in the                         systems in place to monitor
compliance committee on a regular                        traditional written version.                          underutilization and inappropriate
basis, but not less than annually; and                      Methods used to monitor marketing                  denials. Such procedures include
   • Specifically identify areas where                   agents include the analysis of                        collecting data on utilization patterns
corrective actions are needed.                           disenrollment data to identify marketing              and detecting aberrant patterns. This
   In the Medicare+Choice context, a                     agents with high and low percentages of               data should be checked against
variety of different methods will be                     member disenrollments within a set                    utilization rates in the industry. This
necessary to adequately monitor and                      number of days (e.g., 90 days). In                    function could be performed by a
evaluate the ongoing operations of the                   addition, Medicare+Choice
Medicare+Choice organization. In                                                                               medical affairs department that is
                                                         organizations may want to establish
general, the OIG recommends the use of                                                                         responsible for regular review of claims,
                                                         enrollment verification systems
techniques such as on-site visits,                       requiring that a different individual                 the payment system, encounter data and
questionnaires (for providers, enrollees                 from the sales agent meet with                        medical record review to assess the
and employees), and trend analyses, to                   beneficiaries who have applied for                    degree to which care is under (or over)
name just several.97 Because the                         enrollment to ensure that they                        utilized.
auditing and monitoring function is                      understand restrictions of the plan, such                Similarly, the Medicare+Choice
very different and much more complex                     as the lock-in provision.                             organization should survey its enrollees
in the managed care context than in any                     Finally, it is essential for all                   on utilization patterns and whether they
other segment of the health care                         marketing materials to be reviewed by                 felt they were subjected to inadequate
industry, we have provided additional                    an independent and competent                          health care services, inappropriate
guidance on the methods to be used in                    reviewer, such as an individual in the                denials, type of practitioner providing
evaluating selected risk areas.                          general counsel’s office, to ensure that              treatment and whether a beneficiary’s
1. Marketing/Enrollment/                                 they do not mislead, confuse or                       request for another provider was denied
Diseenrollment                                           misrepresent any aspect of the plan.                  or approved. Such survey results should
                                                         Similarly, a Medicare+Choice                          be reviewed and investigated, when
  Developing a system for evaluating                     organization may want to consider
the compliance of the marketing,                                                                               appropriate. Generally, these may be
                                                         having the materials examined by
enrollment and disenrollment functions                                                                         skewed in favor of the Medicare+Choice
                                                         individuals familiar with the claims
of a Medicare+Choice organization                                                                              organization if the enrollees are current
                                                         processing department and utilization
requires innovative techniques. Each                                                                           members. Presumably, if an enrollee
                                                         review office for consistency with the
Medicare+Choice organization will have                   policies, procedures and practices of                 was truly dissatisfied with the
to develop an individualized method as                   these departments.                                    Medicare+Choice organization’s attitude
to how to obtain this data. Some of the                                                                        toward enrollee rights, the enrollee
methods that the OIG suggests include:                   2. Underutilization and Quality of Care               would have disenrolled from the plan.
using secret shoppers; surveying 98                        Procedures for tracking and reporting               As a result, a Medicare+Choice
                                                         utilization review data are vital to the              organization should evaluate both
  96 One way to assess the knowledge, awareness
                                                         success of any compliance endeavor.                   current enrollee satisfaction surveys and
and perceptions of the Medicare+Choice                                                                         exit interview surveys of former
organization’s staff is through the use of a validated
                                                         Medicare+Choice organizations should
survey instrument (e.g., employee questionnaires,        periodically review the service areas                 enrollees.
interviews or focus groups).                                                                                      Medicare+Choice organizations have
  97 Medicare+Choice organizations may want to           such as from the Health of Seniors survey (HEDIS)     a good source of information regarding
consult HCFA’s Contractor Performance Monitoring         and for certain organizations, the mandatory
System Manual to get additional ideas for                disenrollment surveys required under PIP.             utilization issues, simply by tracking the
monitoring methods. In addition, organizations may         99 It should be noted, while this method may be     type of appeals and grievances they
want to consult the OAS website for information on       less expensive, it may not provide unbiased data,     receive from beneficiaries. This
conducting audits, including information on              particularly in the area of selective marketing. In
statistical sampling (RAT–STATS). See note 10.           fact, in the selective marketing area, the data may
                                                                                                               information should be tracked in a
  98 Medicare+Choice organizations may be able to        be skewed significantly in favor of the               database that can be easily accessed by
use response data from already existing surveys,         Medicare+Choice organization.                         type of grievance or appeal and results.
61908                  Federal Register / Vol. 64, No. 219 / Monday, November 15, 1999 / Notices

3. Data Collection and Submission              or her negligence or reckless conduct.                 periodically check existing employees
Processes                                      The sanctions could range from oral                    and contractors.
   Given the importance of the                 warnings to suspension, termination or                    Lists of debarred and excluded
enrollment, encounter and ACR data,            other sanctions, as appropriate. While                 individuals and entities are currently
the Medicare+Choice organization               each situation must be considered on a                 maintained by both the OIG and the
should develop ways to audit this              case-by-case basis to determine the                    General Services Administration.101 By
information to assure its accuracy,            appropriate sanction, intentional or                   approximately January 2000, the
completeness and truthfulness, on best         reckless noncompliance should subject                  Healthcare Integrity Protection Data
knowledge, information and belief. As          transgressors to significant sanctions.                Bank (HIPDB) will be available to
indicated earlier, such methods would                                                                 Medicare+Choice organizations (for a
                                                  The written standards of conduct                    nominal fee) to use in conducting these
ordinarily include sample audits and           should elaborate on the procedures for
spot checks of the system. These                                                                      checks on employees and contractors.102
                                               handling disciplinary problems and                     The HIPDB is an electronic data
activities should be facilitated by the        identify who will be responsible for
fact that HCFA requires                                                                               collection program that will collect,
                                               taking appropriate action. For example,                store and disseminate reports on
Medicare+Choice organizations to detail        while disciplinary actions can be
in their contractual relationships with                                                               practitioners, providers and suppliers
                                               handled by department managers,                        that have been the subject of health care
providers the access that they will need       others may have to be resolved by a
to the provider’s medical record                                                                      related final adverse actions in criminal,
                                               more senior official of the organization.              civil and administrative proceedings.
documentation.                                 Personnel should be advised by the                     The final adverse actions to be reported
4. Anti-Kickback and Other                     organization that disciplinary action                  to the HIPDB include criminal
Inducements                                    will be taken on a fair and equitable                  convictions or civil judgments related to
                                               basis, that is, all levels of employees                the delivery of health care, actions by
   Medicare+Choice organizations
                                               should be subject to similar disciplinary              Federal or State agencies responsible for
should periodically review their
                                               action for the commission of similar                   licensing or certification of health care
contractual documents and discussions
                                               offenses. Managers and supervisors                     providers, suppliers and practitioners,
with providers to ensure that
                                               should be held accountable to                          exclusions from Federal or State health
‘‘swapping’’ is not occurring. In
                                               implement the disciplinary policy                      care programs, and certain final adverse
addition, contracts with marketing
                                               consistently so that the policy will have              actions taken by health plans.103
personnel should be reviewed by legal
                                               the required deterrent effect.                         Pending the resolution of any known
counsel to be sure they do not violate
the anti-kickback statute and other            2. Employment of, and Contracting                      criminal charges or proposed debarment
applicable statutes and regulations.           With, Ineligible Persons                               or exclusion, the OIG recommends that
                                                                                                      such individuals should be removed
F. Enforcing Standards Through Well-             All Medicare+Choice organizations                    from direct responsibility for, or
Publicized Disciplinary Guidelines and         should use care when delegating                        involvement in, any Federal health care
Policies Regarding Dealings With               substantial discretionary authority to                 program. If labor agreements make such
Ineligible Persons                             make decisions that may involve                        removal legally impermissible, the OIG
  The OIG recommends that all                  compliance with the law or compliance                  recommends that the individual be
Medicare +Choice organizations’                oversight. In particular, the organization             closely supervised in all aspects of his
compliance programs include several            should ensure that it does not delegate                or her duties that relate to Federal
key policies in the area of personnel/         such responsibilities to individuals or                health care programs. If the resolution of
human resources. The first deals with          entities that it knows, or should have                 the matter results in conviction,
the establishment, and consistent              known, have a propensity to engage in                  debarment or exclusion of a current
application of, appropriate disciplinary       inappropriate or improper conduct.                     employee or contractor, then the
policies to deal with improper conduct         Pursuant to the compliance program, a                  Medicare+Choice organization must not
and the second deals with the                  Medicare+Choice organization’s policies                continue to employ or contract with
employment of certain ineligible               should prohibit the hiring of, or entering             such individual for the provision of
individuals.                                   into, contracts with individuals or                    health care, utilization review, medical
                                               entities who have been recently                        social work or administrative
1. Consistent Enforcement of                                                                          services.104
Disciplinary Policies                          convicted of a criminal offense related
                                               to health care or who are listed as                    G. Responding to Detected Offenses,
   An effective compliance program             debarred, excluded or otherwise
should include guidance regarding                                                                     Developing Corrective Action Initiatives,
                                               ineligible for participation in Federal                and Reporting to Government
disciplinary action for all employees          health care programs.100 The policies
who have failed to comply with the                                                                    Authorities
                                               should require the Medicare+Choice
Medicare+Choice organization’s                                                                           Violations of the Medicare+Choice
                                               organization to utilize Government
standards of conduct, policies and                                                                    organization’s compliance program,
                                               resources to determine whether such
procedures, Federal health care program                                                               failures to comply with applicable
                                               individuals or entities are debarred or
requirements, or Federal and State laws,
                                               excluded. These resources should be
or those who have otherwise engaged in                                                                  101 OIG’s List of Excluded Individuals/Entities is
                                               used for both potential employees (as                  available on the Internet at http://www.hhs.gov/oig/
wrongdoing. It is vital to publish and
                                               part of the employment application                     and the GSA list of debarred contractors is available
disseminate the range of possible                                                                     on the Internet at http://www.arnet.gov/epls.
                                               process, which should also include a
disciplinary actions for improper                                                                       102 42 U.S.C. 1320a–7e.
                                               reasonable and prudent background
conduct and to educate officers and                                                                     103 Note that agencies and health plans are
                                               investigation), and should be used to
other staff regarding these standards.                                                                required by HIPAA to report to the HIPDB. Failure
Employees should be advised that                                                                      by a health plan to make the mandated reports to
                                                 100 Prospective employees who have been              the HIPDB may result in CMPs being assessed
disciplinary action may be appropriate         officially reinstated into the Medicare and Medicaid   against the health plan, pursuant to 42 U.S.C.
where a responsible employee’s failure         programs by the OIG may be considered for              1320a–7e(b)(6).
to detect a violation is attributable to his   employment upon proof of such reinstatement.             104 42 CFR 422.752(a)(8).
                            Federal Register / Vol. 64, No. 219 / Monday, November 15, 1999 / Notices                                                61909

Federal or State law, rules and program                   reporting potential violations to the                    the inquiry to determine whether
instructions and other types of                           Government, a Medicare+Choice                            similar problems have been uncovered
misconduct may threaten a                                 organization should provide all                          or modifications of the compliance
Medicare+Choice organization’s status                     evidence relevant to the potential                       program are necessary to prevent and
as a reliable, honest and trustworthy                     violation, including the impact of the                   detect other inappropriate conduct or
company. Detected but uncorrected                         potential violation on beneficiaries and                 violations.
misconduct can seriously endanger the                     any potential cost impact. Finally, the                    If an inquiry of an alleged violation is
mission, reputation and legal status of                   Medicare+Choice organization should                      undertaken and the compliance officer
the organization. Consequently, it is                     initiate and implement appropriate                       believes the integrity of the inquiry may
important that the chief compliance                       corrective actions, e.g., repayment of                   be at stake because of the presence of
officer or other management officials                     overpayments, disciplinary actions and                   employees under investigation, those
promptly investigate and take                             modifications of procedures to ensure                    subjects should be removed from their
appropriate action with respect to any                    the problem does not recur.                              current work activity until the inquiry is
reports or reasonable indications of                         Failure to notify HCFA of an                          completed (unless an internal or
suspected noncompliance.105                               overpayment within a reasonable period                   Government-led undercover operation
  Pending issuance of final HCFA                          of time could be interpreted as an                       known to the Medicare+Choice
regulations 106 regarding the obligations                 intentional attempt to conceal the                       organization is in effect). In addition,
of a Medicare+Choice organizations to                     overpayment from the Government,                         the compliance officer should take
report misconduct, the OIG                                thereby establishing an independent                      appropriate steps to secure or prevent
recommends that the following                             basis for a criminal violation with                      the destruction of documents or other
procedures be followed when a                             respect to the Medicare+Choice                           evidence relevant to the inquiry. If the
Medicare+Choice organization discovers                    organization, as well as any individuals                 Medicare+Choice organization
from any source evidence of misconduct                    who may have been involved.110 For                       determines disciplinary action is
related to payment or delivery of health                  this reason, Medicare+Choice                             warranted, it should be prompt and
care items or services under the                          compliance programs should ensure                        imposed in accordance with the
Medicare+Choice contract. First, the                      that overpayments are identified quickly                 organization’s written standards of
Medicare+Choice organization should                       and promptly return overpayments                         disciplinary action.
conduct a timely, reasonable inquiry                      obtained from Medicare or other Federal
                                                                                                                   III. Conclusion
into the misconduct. Second, if after                     health care programs.
reasonable inquiry, the organization has                     The OIG recommends that                                  Through this document, the OIG has
determined that the misconduct may                        Medicare+Choice organizations                            attempted to provide a foundation for
violate criminal, civil or administrative                 consider the following guidance as they                  the development of effective and
                                                          structure internal inquiries. Depending                  comprehensive Medicare+Choice
law, it should report the existence of the
                                                          upon the nature of the alleged                           compliance programs. These principles
misconduct promptly to the appropriate
                                                          violations, an internal inquiry will                     can also be used by entities to develop
Government authority 107 within a
                                                          probably include interviews and a                        compliance programs applicable to
reasonable period, but not more than 60
                                                          review of relevant documents.                            other Federal and health care programs,
days 108 after a determination that a
                                                          Medicare+Choice organizations should                     as well as for their private lines of
violation may have occurred.109 When
                                                          consider engaging outside counsel,                       business. As previously stated, however,
   105 Instances of non-compliance must be                auditors or health care experts to assist                each program must be tailored to fit the
determined on a case-by-case basis. The existence,        in an inquiry. Records of the inquiry                    needs and resources of an individual
or amount, of a monetary loss to a health care            should contain documentation of the                      organization, depending upon its
program is not solely determinative of whether or         alleged violation, a description of the                  particular corporate structure, mission
not the conduct should be investigated and reported                                                                and employee composition. The
to governmental authorities. In fact, there may be
                                                          process (including the objectivity of the
instances where there is no readily identifiable          investigators and methodologies                          statutes, regulations and guidelines of
monetary loss at all, but corrective action and           utilized), copies of interview notes and                 the Federal and State health insurance
reporting are still necessary to protect the integrity    key documents, a log of the witnesses                    programs, as well as the policies and
of the applicable program and its beneficiaries.                                                                   procedures of the private health plans,
   106 42 CFR 422.501(b)(vi).
                                                          interviewed and the documents
   107 For example, if the potential violation relates
                                                          reviewed, and the results of the                         should be integrated into every
to federal criminal law, the Civil False Claims Act,      investigation, e.g., any disciplinary                    Medicare+Choice organization’s
the civil money penalty authorities (primarily            action taken and any corrective action                   compliance program.
under sections 1128A and 1857 of the Social               implemented. Although any action                            The OIG recognizes that the health
Security Act) and related statutes administered by                                                                 care industry, which reaches millions of
the HHS/OIG, the report must be made to that
                                                          taken as the result of an inquiry will
office.                                                   necessarily vary depending upon the                      beneficiaries and expends about a
   108 While the OIG recommends reporting in 60           Medicare+Choice organization and the                     trillion dollars annually, is constantly
days, the organization must report within 30 days         situation, Medicare+Choice                               evolving. In no area of the industry is
in order to attempt to obtain favorable treatment         organizations should strive for some                     this more evident than in the growing
under the Civil False Claims Act. See note 6. In                                                                   area of managed care, particularly
addition, reporting such conduct may be considered        consistency by utilizing sound practices
a mitigating factor by the OIG in determining             and disciplinary protocols. Further,                     Medicare managed care. As a result, the
administrative sanctions (e.g., penalties,                after a reasonable period, the                           time is right for Medicare+Choice
assessments and exclusion), if the reporting              compliance officer should review the                     organizations to implement strong,
company becomes the subject of an OIG                                                                              voluntary compliance programs.
investigation. See 62 FR 67392 (12/24/97).                circumstances that formed the basis for
   109 The OIG believes that some potential                                                                        Compliance is a dynamic process that
violations may be so serious that they warrant            provided to program beneficiaries (in addition to        helps to ensure Medicare+Choice
immediate notification to Government authorities,         any other legal obligations regarding quality of         organizations are better able to fulfill
prior to, or simultaneous with, commencing an             care); or (3) indicates evidence of a systemic failure   their commitment to ethical behavior
internal inquiry. Examples of such situations             to comply with applicable laws or an existing
include instances when the misconduct: (1) Is a           corporate integrity agreement, regardless of the         and to meet the changes and challenges
clear violation of civil fraud or criminal law; (2) has   financial impact on Federal health care programs.        being imposed upon them by the
a significant adverse effect on the quality of care          110 42 U.S.C. 1320a–7b(a)(3).                         Congress and private insurers. It is
61910                    Federal Register / Vol. 64, No. 219 / Monday, November 15, 1999 / Notices

OIG’s hope that voluntarily created             National Center for Research Resources,             Dated: November 4, 1999.
compliance programs will enable                 National Institutes of Health, Bethesda, MD       Anna Snouffer,
Medicare+Choice organizations to meet           20892, 301–435–0824.
                                                                                                  Acting Director, Office of Federal Advisory
their goal of providing efficient and             This notice is being published less than 15
                                                                                                  Committee Policy.
                                                days prior to the meeting due to the timing
quality health care and, at the same            limitations imposed by the review and             [FR Doc. 99–29636 Filed 11–12–99; 8:45 am]
time, substantially reducing fraud,             funding cycle.                                    BILLING CODE 4140–01–M
waste and abuse.                                (Catalogue of Federal domestic Assistance
  Dated: November 5, 1999.                      Program Nos. 93.306, Comparative Medicine,
June Gibbs Brown,                               93.306; 93.333, Clinical Research 93.333;         DEPARTMENT OF HEALTH AND
                                                93.371, biomedical Technology; 93.389,            HUMAN SERVICES
Inspector General.
                                                Research Infrastructure, National Institutes of
[FR Doc. 99–29632 Filed 11–12–99; 8:45 am]      Health, (HHS)).                                   National Institutes of Health
BILLING CODE 4150–04–P                            Dated: November 4, 1999.
                                                Anna Snouffer,                                    National Institute on Deafness and
                                                Acting Director, Office of Federal Advisory       Other Communication Disorders;
DEPARTMENT OF HEALTH AND                                                                          Notice of Closed Meetings
                                                Committee Policy.
HUMAN SERVICES
                                                [FR Doc. 99–29642 Filed 11–12–99; 8:45 am]
                                                                                                     Pursuant to section 10(d) of the
National Institutes of Health                   BILLING CODE 4140–01–M
                                                                                                  Federal Advisory Committee Act, as
National Center for Research                                                                      amended (5 U.S.C. Appendix 2), notice
Resources; Notice of Closed Meetings            DEPARTMENT OF HEALTH AND                          is hereby given of the following
                                                HUMAN SERVICES                                    meetings.
   Pursuant to section 10(d) of the
                                                                                                     The meetings will be closed to the
Federal Advisory Committee Act, as              National Institutes of Health                     public in accordance with the
amended (5 U.S.C. Appendix 2), notice
                                                                                                  provisions set forth in sections
is hereby given of the following                Naional Institute of Child Health and             552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,
meetings.                                       Human Development; Notice of Closed               as amended. The grant applications and
   The meetings will be closed to the           Meeting                                           the discussion could disclose
public in accordance with the
                                                                                                  confidential trade secrets or commercial
provisions set forth in sections                   Pursuant to section 10(d) of the
                                                                                                  property such as patentable material,
552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,      Federal Advisory Committee Act, as
                                                                                                  and personal information concerning
as amended. The grant applications and          amended (5 U.S.C. Appendix 2), notice
                                                                                                  individuals associated with the grant
the discussions could disclose                  is hereby given of the following
                                                                                                  applications, the disclosure of which
confidential trade secrets or commercial        meeting.
                                                                                                  would constitute a clearly unwarranted
property such as patentable material,              The meetings will be closed to the             invasion of personal privacy.
and personal information concerning             public in accordance with the
individuals associated with the grant           provisions set forth in sections                    Name of Committee: National Institute of
applications, the disclosure of which                                                             Deafness and Other Communications
                                                552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,
would constitute a clearly unwarranted                                                            Disorders Special Emphasis Panel.
                                                as amended. The grant applications and
invasion of personal privacy.                                                                       Date: December 2, 1999.
                                                the discussions could disclose                      Time: 10:30 a.m. to 2:30 p.m.
  Name of Committee: National Center for        confidential trade secrets or commercial            Agenda: To review and evaluate grant
Research Resources Special Emphasis Panel,      property such as patentable material,             applications.
Comparative Medicine Review Committee.          and personal information concerning                 Place: Executive Plaza South, Room 400C,
  Date: November 17, 1999.                      individuals associated with the grant             6120 Executive Blvd., Rockville, MD 20852,
  Time: 2 p.m. to Adjournment.                  applications, the disclosure of which             (Telephone Conference Call).
  Agenda: To review and evaluate grant          would constitute a clearly unwarranted
applications.                                                                                       Contact Person: Melissa Stick, Phd, Mph,
  Place: 6705 Rockledge Drive, Suite 6018,
                                                invasion of personal privacy.                     Scientific Review Administrator, Scientific
Bethesda, MD 20892, (Telephone Conference         Name of Committee: National Institute of        Review Branch, Division of Extramural
Call).                                          Child and Human Development Special               Research, NIDCD/NIH, 6120 Executive Blvd.,
  Contact Person: D.G. Patel, PhD, Scientific   Emphasis Panel, U10 Research Grant                Bethesda, MD 20892, 301–496–8683.
Review Administrator, Office of Review,         Application Review.                                 Name of Committee: National Institute of
National Center for Research Resources,           Date: December 8–10, 1999.                      Deafness and Other Communications
National Institutes of Health, Bethesda, MD       Time: 8:30 p.m. to 5 p.m.                       Disorders Special Emphasis Panel.
20892, 301–435–0824.                              Agenda: To review and evaluate                    Date: December 7, 1999.
  This notice is being published less than 15   cooperative agreement applications.                 Time: 10:00 a.m. to 12:30 p.m.
days prior to the meeting due to the timing       Place: American Inn of Bethesda, 8130             Agenda: To review and evaluate grant
limitations imposed by the review and           Wisconsin Avenue, Bethesda, MD 20814.             applications.
funding cycle.                                    Contact Person: Jon M. Ranhand, PhD,
                                                                                                    Place: Executive Plaza South, Room 400C,
  Name of Committee: National Center for        Scientific Review Administrator, Division of
                                                                                                  6120 Executive Blvd., Rockville, MD 20852,
Research Resources Special Emphasis Panel,      Scientific Review, National Institute of Child
                                                Health, and Human Development, NIH, 6100          (Telephone Conference Call).
Comparative Medicine Review Committee.                                                              Contact Person: Craig A. Jordan, Phd,
  Date: November 18, 1999.                      Executive Blvd., Room 5E03, Bethesda, MD
                                                20892, (301) 435–6884.                            Chief, Scientific Review Branch, NIH/
  Time: 2 p.m. to Adjournment.
                                                                                                  NIDCD/DER, Executive Plaza South, Room
  Agenda: To review and evaluate grant          (Catalogue of Federal Domestic Assistance
applications.                                   Program Nos. 93.209, Contraception and            400C, Bethesda, MD 20892–7180, 301–496–
  Place: 6705 Rockledge Drive, Suite 6018,      Infertility Loan Repayment Program; 93.864,       8683.
Bethesda, MD 20892, (Telephone Conference       Population Research; 93.865, Research for         (Catalogue of Federal Domestic Assistance
Call).                                          Mothers and Children; 93.929, Center for          Program Nos. 93.173, Biological Research
  Contact Person: D.G. Patel, PhD, Scientific   Medical Rehabilitation Research, National         Related to Deafness and Communicative
Review Administrator, Office of Review,         Institutes of Health, HHS)                        Disorders, National Institutes of Health, HHS)
